<html>
<title> - FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 2008 HURRICANE SEASON AND THE NATIONAL HOUSING STRATEGY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 2008 HURRICANE 
                SEASON AND THE NATIONAL HOUSING STRATEGY 

=======================================================================

                               (110-172)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-365 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)
























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Becker, Joseph, Senior Vice President of Preparedness and 
  Response, American Red Cross...................................    38
Fagnoni, Cynthia, Managing Director of Education, Workforce, and 
  Income Security Issues, Government Accountability Office.......    38
Johnson, Admiral Harvey, Deputy Administrator and Chief Operating 
  Officer, Federal Emergency Management Agency...................    20
Nagin, Hon. C. Ray, Mayor, City of New Orleans, Louisiana........     4

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Graves, Hon. Sam, of Missouri....................................    52
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    60
Oberstar, Hon. James L., of Minnesota............................    62

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Becker, Joseph...................................................    64
Fagnoni, Cynthia.................................................    69
Johnson, Admiral Harvey..........................................   139
Nagin, Hon. C. Ray...............................................   158

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    HEARING ON FEMA'S RESPONSE TO THE 2008 HURRICANE SEASON AND THE 
                       NATIONAL HOUSING STRATEGY

                              ----------                              


                      Tuesday, September 23, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We are pleased to welcome all of you today to 
our hearing, especially our witnesses, on FEMA's response to 
the 2008 season and on the National Disaster Housing Strategy.
    This year's hurricane season has been unusually active and 
once again has had dramatic impact on America's Gulf Coast 
region. The President has declared 13 disasters or emergencies 
under the Stafford Act hurricanes and tropical storms in the 
2008 season, however, including Tropical Storms Edouard and 
Fay, and Hurricanes Bertha, Dolly, Gustav and Ike. More than 2 
million people were evacuated in the wake of Hurricanes Ike and 
Gustav. American people must be assured in the midst of yet 
another powerful hurricane season that the country is prepared 
for seasonal and terrorist events alike and that FEMA has 
developed a coherent housing strategy for addressing the 
inevitable aftermath of large scale disasters.
    We can make no final judgment until all the evidence is in, 
but the Federal, State and local authorities appear to have 
done a credible job in evacuating citizens away from hurricane 
danger.
    At the same time, despite improvements from 3 years ago, a 
number of problems may remain, such as emerging complaints that 
New Orleans' poorest residents were transported on buses with 
no announced destination and warehousing and crowded and 
substandard conditions. If so, we fear that the next time many 
residents may choose to remain in place as they did during 
Hurricane Katrina.
    I spoke with FEMA Administrator David Paulison as the 
evacuation was beginning. His assurance concerning complete 
evacuation materialized, but he also spoke of specific 
destinations and prepositioned supplies that complaints from 
Louisiana now call into question.
    To address the issues of accountability that were on stark 
display during the Katrina response, Congress passed out Post-
Katrina Emergency Reform Act 2006, which described directives 
that were necessary to prepare for the next disaster. Among the 
most important was a mandate to FEMA to submit a report to 
Congress describing the National Disaster Housing Strategy.
    In response FEMA drafted a housing strategy and requested 
public comment on July 24th, 2008. In anticipation of this 
hearing, which was previously postponed at FEMA's request, I 
appreciate that FEMA extended the comment period on this 
important policy so that comments from today's hearing could be 
included on the public record.
    The Post-Katrina Act requires the FEMA Administrator to 
ensure that a new National Disaster Housing Strategy provides a 
comprehensive approach to housing victims of a disaster for the 
immediate and for the long term as needed, consistent with the 
Administrator's role as the principal emergency management 
adviser to the President.
    In reviewing and analyzing the National Disaster Housing 
Strategy, today's hearing will help the Subcommittee understand 
the strategic strengths and weaknesses within the context of 
the Post-Katrina Management Reform Act. The aftermath of 
Hurricanes Gustav and Ike also should help us gauge the 
effectiveness of the Post-Katrina Management Reform Act and of 
FEMA's first significant test under the act.
    We especially appreciate testimony we will receive today 
from Mayor Ray Nagin of New Orleans about the most recent 
responses after Gustav and Ike came ashore, the evacuation, the 
ability of FEMA, the city and State to provide the needed 
assistance and progress in New Orleans since Katrina. It will 
be important to hear of improvements that the City of New 
Orleans, the State of Louisiana and FEMA have made in 
responding to these hurricanes, but equally important is 
testimony concerning other important elements of preparation 
and response, including planning and consultation among the 
authorities that were involved, as well as the remaining 
challenges that they see.
    As we focus on the condition of citizens after the storm, 
this Subcommittee also is particularly concerned about the role 
and responsibilities of the American Red Cross, a 
congressionally chartered organization which has major 
assistance roles to play in recovery from disasters.
    A recent GAO report found that the Red Cross and other 
disaster relief charities such as the Salvation Army and the 
United Way of America are unprepared to meet mass casualty 
needs in the aftermath of a major disaster. We have called both 
GAO and the Red Cross to testify today in light of the GAO's 
finding that a large scale disaster could overwhelm the Red 
Cross and other charities that have Federal responsibilities 
for assisting the government and providing assistance to 
victims of disasters.
    In the aftermath of the devastation of Katrina, we must 
look at issues differently and more broadly and take the 
required action. If the Red Cross is expected to play a role in 
recovery from major disasters, we must work with FEMA to define 
the function that the Red Cross and other relief charities 
realistically can perform to supplement the Federal 
Government's role.
    We look forward to hearing from today's distinguished 
witnesses and thank them in advance for preparing testimony.
    I am pleased to ask the Ranking Member, Mr. Graves, if he 
has a statement at this time.
    Mr. Graves. Thank you, Madam Chair. If it is all right, I 
would like to yield to Representative Mica, who is Ranking 
Member of the overall Committee.
    Ms. Norton. Mr. Mica.
    Mr. Mica. Well, thank you for conducting this hearing 
today. I won't be able to stay for the entire hearing, but I 
use my opening statement to raise a number of issues. As you 
know, my area has been hit with hurricanes, floods, tornadoes, 
fires. I think we have had everything but locusts and we are 
working on a plan to possibly deal with that.
    So we have had a little bit of experience with FEMA and 
some of the FEMA witnesses I see here. These will be my 
questions. In fact I want some written responses from FEMA on a 
couple of these issues.
    One of the things we found dating back to our hurricanes is 
we have multiple FEMA officials coming in, I guess like in 
Katrina or all the different hurricanes that we had. We had 
three in my district. We had different officials come in and I 
think it was well intended, they came in and gave direction to 
local officials. Those preliminary officials were changed out 
with other officials who came in and made other decisions and 
interpretations of rules, regulations and all of the above.
    Then we had, as time progressed and the agency changed 
their personnel out, we had other people coming in and giving 
us other opinions, suggestions, recommendations and edicts, 
sometimes countermanding the previous two. In some instances we 
are now on our fourth set of officials, giving the fourth 
interpretation of whatever opinion we were seeking. So this is 
something we are going to have to work on to do better.
    The other thing is multiple audits. Congress created this 
as a result of Katrina, but--and we don't want fraud, we don't 
want waste, we don't want abuse, but we have got audits upon 
audits and agency upon agency involved in this process. Somehow 
we need to get this straightened out. In fact, I have got 
auditors down in my district still auditing from other audits. 
So that is number 2 and I would like a little response on that.
    Number 3, the debris removal problem related to public 
versus private land. In many instances you couldn't get to 
public land unless you went across private land. Somehow we 
have got to figure out a better way for reimbursement and 
better definition of who gets reimbursed in what situations, 
because now we are running around in circles chasing our tails 
on reimbursement, public versus private land.
    Travel trailer loans and transfers, that requires some 
Stafford Act amendments, still a disaster. We will even take 
them with the formaldehyde. Just what people need in a 
disaster. I have had six attorneys on the phone during a crises 
trying to get 150 trailers on an emergency basis while FEMA is 
paying rent on them down the street in a lot and couldn't--it 
just makes absolutely still no sense, but that oneis under 
Congress, so chalk that one up.
    Finally, the grant approval time frames need expediting, 
and that I guess is somewhat in our corner, too.
    Madam Chairwoman, I just wanted to add my two cents to this 
and hopefully at least on the first three we can get some 
response from FEMA in writing after this hearing or verbally 
transmitted to the Committee. Thank you for the hearing, and I 
yield back.
    Ms. Norton. Well, thank you, Mr. Mica. Mr. Graves, do you 
have anything to say at this point?
    Mr. Graves. Thank you, Madam Chair. I think I will just 
submit my entire statement for the record. But I would like to 
asked Admiral Johnson, if you would, please convey to Chief 
Paulison and all the folks at FEMA how much we appreciate your 
dedication and hard work. We know this is a work in progress, 
the post-Katrina reforms. We have got a lot of ground to cover 
yet before we get there, but I would appreciate you doing that.
    Madam Chair, I will submit my entire statement for the 
record so we can move on with the hearing.
    Ms. Norton. Could I ask Mr. Arcuri if he has any statement.
    Mr. Arcuri. No questions.
    Ms. Norton. Thank you very much. I would like to call our 
first witness. I am very pleased to welcome the Honorable Ray 
Nagin, the Mayor of New Orleans. The mayor knows we have been 
trying to get down there. We discovered the first time we tried 
that because Katrina decided to arrive as Labor Day approached, 
you couldn't get anyone to go with you, and therefore every 
anniversary we are plagued with the same issue. And I am 
delighted to welcome you so we could get your progress report, 
this time apparently not only on Katrina and what has happened 
since then, but the fact that you have been subjected to yet 
other hurricanes since. So we pleased to have your testimony at 
this time.

TESTIMONY OF THE HON. C. RAY NAGIN, MAYOR, CITY OF NEW ORLEANS, 
                           LOUISIANA

    Mr. Nagin. Thank you to Chairwoman Eleanor Holmes Norton, 
to Ranking Member Sam Graves of the House Transportation and 
Infrastructure Subcommittee on Economic Development, Public 
Buildings and Emergency Management and to all distinguished 
Members of the Committee, panel and guests. I am C. Ray Nagin, 
Mayor of the City of New Orleans.
    Our great city is facing the challenge of rebuilding after 
2005 Hurricane Katrina, the worst natural and man-made disaster 
to occur in the United States of America. We also had the 
challenge of dealing with Hurricane Rita right behind that one. 
We were threatened and touched by two more devastating 
hurricanes this season that recently hit the Gulf Coast region. 
Those were Hurricane Gustav and recently Hurricane Ike.
    I have submitted my testimony to this Committee. I would 
like to briefly touch on a couple of different areas. First is 
to update you on 2008 and what happened this year as relates to 
FEMA: talk to you a little bit about our updated plans; our 
city assisted evacuation plan; and talk to you about a need for 
a national evacuation plan and sheltering proposal. I will 
touch on FEMA and supplies and some issues that we saw this 
past season. I will touch on hurricane protection and some of 
the things we are working on: housing, trailers and a few 
Stafford Act revisions. Hopefully I will do that in a short 
period of time.
    Hurricane Gustav posed a serious threat to New Orleans as 
it approached the coast of Louisiana. We are fortunate that 
although parts of our city had damage and our electrical power 
infrastructure received a temporary crippling blow, the 
partially restored 100-year flood and levee protection system 
in the city held and we were spared the widespread destruction 
that the other areas of our State experienced.
    America's investment in the levee protection system in New 
Orleans seems to be paying off. We just need to pick up the 
pace and finish that great work and get to the 100-year flood 
protection.
    My prayers go out to the people of other parts of Louisiana 
and our neighboring State, Texas, who felt the brunt of two 
devastating storms, Gustav and Ike. I personally visited 
Terrebonne Parish and other parishes around our State and we 
have offered our assistance there. I have also spoken to the 
leadership in Houston and Galveston and have committed to doing 
anything that my city can do to help them in their response and 
recovery.
    It is my hope and prayer that they will not encounter 
difficulties that we experienced during the past 3 years in 
accessing assistance from Federal agencies charged with 
supporting response and recovery. However, based upon my 
preliminary conversations with leaders in this area, they are 
still having some of the same experiences even though things 
have gotten somewhat better.
    We appreciate all that Congress has done to support us, and 
we urge you to continue to work to implement changes that will 
be valuable to us and all communities preparing for emergencies 
and rebuilding their homes and lives.
    Let me briefly touch upon our city assisted plan that we 
have been practicing for 2-1/2 years. We have a plan that is 
called our City Assisted Evacuation Plan, a comprehensive plan 
to evacuate citizens who cannot leave on their own because of 
financial, medical or other reasons. This plan utilizes city 
buses to pick up residents from 17 designated pickup locations 
throughout the city and transfer them to a central location for 
processing, the Union Passenger Terminal. At the Union 
Passenger Terminal those residents are then transported by 
buses contracted by the State of Louisiana, Amtrak trains and 
airplanes contracted through the Department of Defense to 
shelters in northern Louisiana. And as the Chairlady mentioned 
earlier, there were significant problems with some of the 
shelters in northern Louisiana as far as where they were set 
up, how they were set up and what types of services were 
provided. We got many complaints.
    Fortunately, using this process we evacuated approximately 
18,000 of our residents who were our most vulnerable citizens 
to safety. Our capacity for this process is around 30,000 
citizens that can be processed effectively. Combined with those 
who use their own means of transportation, every resident who 
heeded our warning was able to leave this time.
    The New Orleans Police Department did a great job, and 
their estimates are there were only 5,000 to 10,000 people 
remaining in the City of New Orleans. That is an evacuation of 
97.5 percent of all of our citizens. During Katrina we thought 
we had done a pretty good job, but we only got out 90 percent 
of our citizens. So we just about got everybody out of our 
city. We were part of a much larger evacuation of 1.9 million 
citizens.
    As we move forward there are many things that we can 
improve upon, but we have seen some improvements already. I 
would like to make a couple of points. First, I would suggest 
to this Committee that we need a national plan for regional 
evacuations that use assets such as Amtrak and airplanes for 
transportation. We found in this latest example with Gustav 
that that was the most efficient way that we could get people 
in and out of our city. And we did something that I didn't 
think was possible: we emptied our city out and repopulated it 
in about 4 days. And if we had had power we probably could have 
done it a little bit more quickly on the back-end side.
    We also suggest to you that we need to have a Federal 
sheltering plan in place. Really the sheltering problem that we 
experienced with the State is one that could be solved if there 
was a Federal plan in place. This can be utilized both pre-
event and post-event, because we saw after Gustav and Ike is 
that there is a need to house people even after a disaster has 
passed. We think the Federal Government can help to coordinate 
that.
    We did notice some challenges this time also with ice and 
MREs and tarps. We did have an immediate supply, but we think 
that that needs to be stepped up. There was a shortage of 
supplies and when Ike came down, Texas was also challenged. 
Tarps sometimes took 7 days to access.
    I would encourage this Committee to help us to finish the 
flood protection system, the 100-year flood protection. The 
Corps of Engineers is telling us that they won't be finished 
until 2011. That is 6 years after Katrina. We can no longer 
afford to play Russian roulette with these storms. We need that 
100-year flood protection.
    On the housing front we still have many of our citizens who 
are in travel trailers. And Congressman Mica, if you want a few 
travel trailers we might be able to accommodate you. We have 
more than our fair share in our great city. And if you like 
formaldehyde we have plenty of those, too. We are working to 
get people into their homes.
    Part of the problem that we are having is with the Road 
Home Program, which handles the grants that citizens need to 
rebuild their lives. Only 69 percent of those applicants have 
received awards from the State. So many people are kind of 
stuck in these shelters, in these travel trailers. So we are 
hoping that we can move that expeditiously, those grants, so 
people can get out of those shelters.
    As far as FEMA and a comprehensive housing policy, we have 
not seen that yet. We are hoping that we can get to a better 
place other than just travel travelers, but we haven't seen 
that yet. And we are concerned because the housing assistance 
program that FEMA does have is scheduled to expire March 1st. 
We still have people waiting on Road Home checks and still in 
trailers. So we hope that that program can be expedited.
    Another issue is with the Stafford Act, and I am closing 
now. The Stafford Act has been modified somewhat, but we think 
there are still some significant areas for change for major 
catastrophes. FEMA seems to be able to handle a hurricane or 
minor flooding, but major catastrophes still cause problems. We 
think that a significant area to look at is having a 
catastrophic disaster category where there will be special 
rules associated with that, whether it be advances for 
municipalities that have been shut down or other things.
    We also think that there needs to be a third party dispute 
resolution process put in place. If you have a problem with 
FEMA right now on anything dealing with restoring a public 
facility, there is nowhere for you to go outside of the FEMA 
system. So a formal, public dispute resolution process would be 
great going forward.
    Madam Chair, I think I am going to pass on the rest of this 
because it is in my testimony. I want to thank this Committee 
once again for helping us throughout this Katrina experience 
and the 2008 hurricane season. New Orleans and our region are 
critically important to this Country and we are significant in 
terms of our contributions to the Country's energy supply, 
international trade, fishery industry and culture. But 
unfortunately hurricanes as a force of nature will continue and 
they are affecting many States, from Louisiana, Texas, 
Mississippi, Florida, et cetera. We must resolve to work 
collaboratively to make sure that we have a response that is 
appropriate for these type of disasters.
    Thank you.
    Ms. Norton. Thank you very much, Mayor Nagin. I want to 
first ask you how you would characterize the status of 
recovery, leaving aside for a moment the visits of Ike and 
Gustav, how would you characterize the status of recovery in 
New Orleans for years later; for example, population return.
    Mr. Nagin. Yes.
    Ms. Norton. Return to schools, and businesses reopen and 
help from FEMA, et cetera, any way you would like.
    Mr. Nagin. We are still a tale of two cities. We have about 
72 to 75 percent of our population back in the City of New 
Orleans. There are many people still waiting to get back into 
the city, but we have challenges still with affordable housing. 
We still have four of our major housing developments that are 
going through the HOPE VI transition but haven't broken ground 
yet. Our school system is back up and operational; we are 
building new schools. We have about the same percentage of our 
students who are back, but the public education system in New 
Orleans is transitioning into a model of not only elected 
officials running the school district, but we have charter 
schools. You name it, we have it in the City of New Orleans. 
The jury it still out on that.
    As far as businesses are concerned, our hospitality 
industry is doing quite well. Major businesses, about 90 
something percent of them came back after Hurricane Katrina and 
they are doing okay. Our health care sector is still fairly 
stressed. We are hopeful that a new VA hospital will be built 
in our city and it looks like that is going to happen.
    But if you go into areas like the Lower Ninth Ward, which 
has gotten a lot of profile from the press, you still will see 
devastation. And there are lots of slabs from demolished homes 
in that area and throughout the city. We are still working back 
and forth with FEMA on whether the cost of removing those slabs 
will be a cost that is eligible for reimbursement. So we are a 
tale of two cities.
    Ms. Norton. That sounds like there is progress.
    Mr. Nagin. There is progress.
    Ms. Norton. And New Orleans is rising again.
    Perhaps I should--because I know he can't always stay--this 
hearing is of such importance that the Full Committee Chair, we 
have already had the Ranking Member of the Full Committee Mr. 
Mica come, the Full Committee Chair is here as well, Mr. 
Oberstar.
    Mr. Nagin. Good to see you, sir.
    Mr. Oberstar. Thank you, Madam Chair for the hearing. Mayor 
Nagin, we welcome you back to the Committee room, it is always 
good to see you.
    Mr. Nagin. Good to see you.
    Mr. Oberstar. We didn't usually see you in a tie and shirt. 
We see you in some state of distress with your shirt sleeves 
rolled up.
    Mr. Nagin. Yes.
    Mr. Oberstar. Or short-sleeved shirts and a worried look on 
your face.
    Mr. Nagin. Yes, yes.
    Mr. Oberstar. I would just repeat what I said at the first 
hearing 3 years ago. New Orleans taught America how to cook, 
how to eat, how to live, how to preserve culture. It was the 
Battle of New Orleans that united America, made us realize we 
were a nation, not just a collection. And we owe it to New 
Orleans to rebuild this city, we still owe it, and that job is 
not by any means done.
    Mr. Nagin. Yes.
    Mr. Oberstar. Ms. Norton has hosted 12 hearings on post-
Katrina issues and FEMA. She has been relentless in pursuit of 
the need for the Federal Government to do a better job in 
responding, supporting our citizens and responding to natural 
disasters. Those are calamities not of the city's doing, not of 
the State or the Nation's doing, they happen.
    While terrorist acts can be a long time in the plotting and 
we never know when they are going to come, we know every year 
there is going to be a hurricane. We know in the north there is 
going to be a snowstorm. We know there are going to be droughts 
in the West and floods in other parts of the Country, and we 
need to be prepared for those.
    So preparedness. There was an Office of Emergency 
Preparedness at one time, it was an Office of Civil Defense in 
its origins. There was a time in 1987 when the then Reagan 
administration proposed to effectively eliminate the Federal 
role in disaster response. It was a Subcommittee on 
Investigations and Oversight of this Full Committee, which I 
Chaired at the time, which mobilized the Nation. We held 
hearings bringing civil defense authorities from all over the 
Country. And out of those hearings we crafted the bill that 
created what we know today as FEMA.
    Now a little historical footnote, I gave that bill in draft 
form to the Republican Member of Congress from Pennsylvania who 
first brought the issue to our attention. And my Ranking Member 
at the time was Bill Clinger, a Republican of Pennsylvania. I 
told this Member, I want you to introduce this bill. He said, 
but I am in the minority. I said yeah, but you had the courage 
to bring that issue to our attention. We have crafted the bill 
and you ought to introduce it, besides the Republican 
administration needs to you to lead the effort. We got the bill 
enacted. His name? Tom Ridge.
    When he became Secretary of Homeland Security he came up to 
see me. He said you started me on this course. Well, that 
journey is not finished and FEMA does not belong in Homeland 
Security, it belongs in the independent Office of the President 
or in a Cabinet level or sub-Cabinet level, an independent 
structure with a liaison, a linkage to Homeland Security, but 
not messed up in the Interior.
    What happened with FEMA when Homeland Security was created 
was exactly what I predicted would happen at the time the 
Homeland Security Department was created. That money would be 
siphoned off and personnel would be drained away from the 
agency. And in the first 6 months of Homeland Security 250 of 
the top personnel of FEMA were sent elsewhere in the Department 
and $500 million of the budget was siphoned off elsewhere. And 
when the Katrina disaster struck they didn't have the key 
personnel in place to help you, to help the State and to help 
other States, Mississippi and Alabama, and east Texas, to 
respond.
    Now, we are going to take the lessons learned. We have 
already passed the bill last year to reform a good deal of 
FEMA. I would hope that, as we affectionately call them, the 
other body will move that legislation. There has been some 
action over there, and quite possibly Madam Chair will be able 
to conclude the action on the bill before the end of this 
session. It is still up in the air. It isn't going to address 
all of the needs, but it will address a good many of them.
    But we are going to restart next year. We will need your 
contribution again, as you have done so willingly many times, 
and reshape top to bottom. We need a top to bottom review of 
FEMA and restructure it and recreate it. There already have 
been 13 hurricane events in this season.
    Mr. Nagin. Yes.
    Mr. Oberstar. If you look at a chart going back into the 
1980s, the cost of natural disasters just escalates 
extraordinarily, and the cost to the private insurance sector 
and to the public sector, both Federal and State and local. 
That is one thing we know is going to continue to happen with 
global climate change. So with what we have done in the Water 
Resources Development Act to rebuild the wetlands in Louisiana, 
to close out the Mississippi River Gulf outlet----
    Mr. Nagin. Yes.
    Mr. Oberstar. --that caused the disaster that over topped 
St. Bernard Parish that nearly wiped out the Islenos culture, 
that should never have happened and didn't happen when that 
wetland between Lake Borgne and St. Bernard was intact.
    Mr. Nagin. Yes.
    Mr. Oberstar. But once the Mr. Go was developed, the salt 
water came in, the intrusion killed the wetland, the marsh 
grasses landed on top of the houses. I have never seen a 
situation where whole homes were lifted up, floated away with 
their concrete pad intact and went as much as three blocks.
    Mr. Nagin. Yes.
    Mr. Oberstar. One home I saw, Madam Chair, stopped only 
when it bumped into a house that didn't move. And after 6 
months the homeowner of the intact home sued the other guy for 
collision damage. I said, why did you do that? He said, what 
else are we going to do? The Corps isn't helping us out, FEMA 
isn't helping us out, no one can help us out. So we just 
thought for a little excitement we would have a lawsuit. That 
shows a lot of resiliency in the people, but it shows a failure 
of the public sector.
    You have experienced a great deal of dislocation and 
disruption. You have led the effort to rebuild your community. 
You have been a stalwart and we need to reward that effort with 
a much better Federal partnership and response. And under the 
leadership of Ms. Norton and Mr. Graves on the Republican side 
and a bipartisan effort, we are going to do that. I pledge that 
to you.
    Mr. Nagin. Thank you, sir.
    Ms. Norton. Mr. Graves, do you have any questions at this 
time?
    Mr. Graves. Thank you, Madam Chair. Thank you, Mayor, for 
coming in. We appreciate it very much. You were talking about 
some of your city recovering and some things. Population wise, 
how much population have you lost?
    Mr. Nagin. About 75 percent is back, and around 100,000 
people that still have not been able to come back.
    Mr. Graves. Do you think they are just never going to come 
back or they still don't have their homes?
    Mr. Nagin. I think a percentage have settled in where they 
are, but there is a significant percentage of those individuals 
that still would like to move back to New Orleans, but because 
of affordable housing issues and Road Home issues with their 
grants, many of our citizens struggled with their insurance 
companies, the whole wind versus flood debate, and there are 
some financial gaps, but we are trying to help them out as best 
we can.
    Mr. Graves. And how about in your local government changes, 
what changes has your city government made to get ready for 
hurricanes in the future or changes you made as a result of 
what happened in Hurricane Katrina?
    Mr. Nagin. Right after Katrina, while we were starting the 
rebuilding process, we started immediately planning for the 
next major hurricane. We have evaluated just about every one of 
our processes. We went up to Emmitsburg, Maryland, I think it 
is, which is a FEMA training facility. I took my whole team 
through that. We practiced, had exercises throughout the year. 
We have adjusted our evacuation plans and re-entry plans, and 
we have put more resources in our disaster management group. 
And we performed pretty well during Gustav.
    Mr. Graves. I congratulate you on being able to remove--
what did you say, 96 percent?
    Mr. Nagin. No, it was about 97 percent of our citizens in 4 
days, emptied and repopulated the city in 4 days.
    Mr. Graves. Big job.
    Mr. Nagin. I don't know of any other city that can do that.
    Mr. Graves. Thanks, Madam Chair.
    Mr. Nagin. Thank you.
    Ms. Norton. Mr. Arcuri?
    Mr. Arcuri. Thank you, Madam Chair. Mayor, first of all, 
thank you very much for being here. I just want to thank you 
for what you did. You symbolized for the rest of the country 
the resiliency and fight in New Orleans. Thank you for what you 
have done.
    Mr. Nagin. Thank you.
    Mr. Arcuri. Mayor, I am from upstate New York, and we have 
had a few 50-year floods, nothing to the degree that you have 
had, but we have had some serious damage. One of the things 
that we talk about is the importance of FEMA in doing some of 
the--the actions beforehand, buying up some of the homes in the 
flood plains in the areas. You are sort of in a unique place. 
You have seen what happens on the front end and then you have 
seen what happened this year, granted not to the same degree of 
Katrina, but when the right things are done the prevention that 
can take place. Can you share with us just some of your 
thoughts in terms of, you know, on how important it is to spend 
money on the front end so you can save money on the back end?
    Mr. Nagin. Well, there are a couple aspects that I can 
refer you to. First is our hurricane protection system. I know 
Congress worked very hard, but the billions of dollars you put 
forward we didn't have any catastrophes as it relates to that. 
We had to confiscate some land or help the Corps to confiscate 
some land from our citizens, but that allowed the Corps to 
build the protection systems that we desperately needed.
    The other thing I can point you to is that FEMA was able 
this time to preposition some assets, some MREs, some water, 
some ice. Even though we ran short of supplies, that saved us 
time and effort on the back end, if you will, once the storm 
hit. So those are two things that I think we could continue to 
work through.
    And I will tell you another thing that would help a lot. 
FEMA is starting to prioritize the types of repairs that you 
can do after an event, whether they be police stations, fire 
stations or what have you. I think they have taken some of the 
lessons they learned in New Orleans and are applying those to 
Texas and some other places. The reason why I bring that up is 
because it took us such a long time to get our criminal justice 
system back up and operational; we experienced damage, and we 
experienced crime that cost us and the Federal Government a lot 
of money. By prioritizing those efforts, I think that can be 
avoided in other places.
    Mr. Arcuri. After Katrina did FEMA buy some of the area or 
some of the land where houses were in dangerous areas or 
dangerous zones?
    Mr. Nagin. The State did through the Road Home Program. So 
for example, if a citizen was in a low lying area that is 
repeatedly flooded, you can opt to either rebuild your home 
higher or safer or you could sell that property. And there were 
a significant number of people who took that option.
    Mr. Arcuri. Was it successful?
    Mr. Nagin. We are still in the middle of it, but based upon 
the properties, a map of the properties, it looks as though 
some really low lying areas, just about everybody sold their 
properties, which was smart because the marketplace made an 
intelligent decision. We kind of gave them the guidance, here 
is the levee protection system, here are the risks, here is 
what you face going forward, and people made intelligent 
decisions.
    Mr. Arcuri. I guess the big question is, is it worth it 
financially, do you save money on the front end by buying up 
those parcels as opposed to, you know, the back end after the 
damage already occurs?
    Mr. Nagin. Well, normally I would have totally agreed with 
you. I think that still makes some sense. But these storms are 
different now. For the first time this year I have noticed 
with, let's take Gustav and Ike, they came in so fast that 
normally storms run at about 5 to 8 miles an hour when they 
come in. These were coming in at 12 to 15 miles an hour. They 
had so much momentum that they went so deep inland. I mean, Ike 
had flooding that it caused in Ohio. So, I don't know if you 
are going to be able to buy up enough property with the type of 
storms that we are seeing. The only thing I can see us doing is 
work on global warming and let's get some coastal restoration. 
Then I think we are going to be okay.
    Mr. Arcuri. Thank you very much, Mayor, appreciate all of 
your work.
    Mr. Nagin. Thank you.
    Ms. Norton. Thank you, Mr. Arcuri. Mayor, I want to ask you 
about something in your plan and also some reports we have 
heard. I mean in your testimony you speak of some issues 
involving information between the city and the State. I ask 
this because I spoke with Mr. Paulison as the evacuation was 
occurring, I think it was Labor Day, I know everybody was home. 
I managed to get him. He gave me a very good and full report 
and assured me there would be evacuation, and there was a full 
evacuation.
    He told me as well that there were destinations. He gave me 
examples of destinations, a number of destinations all the way 
into Alabama. And he said that there were not only 
predesignated shelters, but there were predesignated supplies.
    First, I have to ask you about the predesignated shelters, 
because if there were predesignated shelters why did so many of 
them--the figure we received was as many as a thousand of the 
poorest people who were apparently transported by buses and 
apparently didn't know where they were going--I don't know why 
not tell them, they are going to come home--found themselves in 
something, shades of Katrina, in some huge warehouse, and there 
were no bathing facilities, they were crowded. It was 
apparently a very serious substandard state.
    Mr. Nagin. Yes.
    Ms. Norton. They may have been there for a week. Did you 
know ahead of time that people would be going there? And do you 
have any idea how that happened? That is the only one we heard 
of.
    Mr. Nagin. I will just give you what I know. The city's 
responsibility is to get our citizens from their places, if 
they need it, to a central location, utilizing our 
transportation medium, and then get them to the point where we 
can hand them off to the State for transportation to the 
shelters, whether they be in State or out of State. That is our 
responsibility. FEMA----
    Ms. Norton. Are you saying that you can't take them even to 
a shelter in State if it is not in your jurisdiction?
    Mr. Nagin. No. The State of Louisiana is responsible for 
that.
    Ms. Norton. So they might have to get off something and get 
on something else or they just pick up the responsibility?
    Mr. Nagin. Only one time. We get them to the Union 
Passenger Terminal, we register them, and then they get on 
either a bus, plane or train and they go somewhere that is 
basically out of our control.
    Now, it is my understanding that FEMA was coordinating out 
of State shelters with the State and those were pretty well 
determined. I think we had Alabama and Memphis. Tennessee and 
Texas were taken out of play because of the direction of the 
storm. But those were pretty well established and we knew about 
them. The problem was in State. There were buses that we would 
put our citizens on, but the State contractor didn't know where 
they were going because the State locations had not been fully 
articulated.
    Ms. Norton. But it was not on a bus to nowhere?
    Mr. Nagin. Some were. And we had to direct some--because we 
were getting a backlog at the Union Passenger Terminal. We 
directed the buses just to start moving north. And we would 
communicate with them the exact location, which ended up 
working out. But it seems as though the State----
    Ms. Norton. Does that mean that the State was late in 
finding sheltering space and hadn't preplanned for where people 
might go after in case they left New Orleans?
    Mr. Nagin. It appeared as though everything that should 
have been prepositioned as it relates to shelters in the State 
was not completed until a very late time.
    Ms. Norton. You suggest a need for planning in the future 
been the State.
    Mr. Nagin. Yes, either the State needs to let us know much 
earlier or FEMA can take responsibility for in State and out of 
State sheltering. I don't know if that is something they would 
want to do, but there are three different levels of government 
that are dealing with these disasters and it just needs to be a 
little better coordinated on the sheltering side. That is if we 
have any trouble going forward. I worry about that aspect of 
what we did.
    Ms. Norton. Well, you mention that there were shortage of 
some supplies like ice and so forth.
    Mr. Nagin. Yes, that happened from the standpoint of after 
a few days, I think we were able to set up what they call PODs, 
which are basically distribution centers for people to pick up 
ice, water and MRE's. We were only able to man three PODs 
throughout the entire city, three locations. And then we ran 
out of supplies after 2 or 3 days.
    Ms. Norton. Who was providing those supplies?
    Mr. Nagin. That was through the Corps and through FEMA.
    Ms. Norton. We will have to find out what happened there.
    We heard also of food stamps that had to be activated. Now 
I understand that there were--with all the overwhelming 
catastrophe of Katrina, you would expect somebody to take 
advantage of it. So there were some people who got food stamps 
who never should have gotten it. But there were complaints from 
some that you have food stamps and then you can't use it until 
it is activated. I can't even tell how you get it activated or 
how you know when it has been activated. I mean does it buzz?
    Mr. Nagin. There was a program, a benefit that people who 
normally do not qualify for food stamps can come in and get a 
card and, based upon your income level and how many people in 
your household, you can get up to $500 worth of value on that 
card. The problem was they forced everybody to come in and do a 
face-to-face process, which caused one problem. And then 
secondarily the system was overwhelmed. Their technology was 
overwhelmed where it took 72 hours before the card was 
activated. In some cases it was never activated. So it was kind 
of a mess.
    Ms. Norton. So this was after they had done the face-to-
face?
    Mr. Nagin. This was after. It was a mess and I think 
somebody resigned at the State as a result of it.
    Ms. Norton. In the State or at FEMA?
    Mr. Nagin. State.
    Ms. Norton. I see. So that activation of food stamps----
    Mr. Nagin. Was a State responsibility.
    Ms. Norton. Was a State responsibility, not a FEMA 
responsibility?
    Mr. Nagin. Not that I am aware. I am sure the Admiral will 
come up and correct me, but I think it was a State 
responsibility.
    Ms. Norton. I can't but help and ask you about the levees. 
We were all nervous about the levees, and please don't do this 
to New Orleans again. What does that tell us? Does it tell us 
that the storm wasn't so strong as to test the levees or does 
it tell us that the levees are truly stronger because of the 
work that you have done?
    Mr. Nagin. I think it tells us that America's investment is 
starting to pay off, but we are just not finished. It tells us 
that we can handle a Category 3 storm that dissipated once it 
got to shore.
    Ms. Norton. Katrina was a Category?
    Mr. Nagin. Was at least a 3.
    Ms. Norton. So it has already done its damage there, and 
yet you can handle a 3 now?
    Mr. Nagin. Yeah, we think we can handle a 3 coming in that 
direction. Katrina came in a different direction. So we didn't 
test the system exactly.
    Ms. Norton. It wasn't the same levees that were being 
tested, was it?
    Mr. Nagin. Yeah, but it was much more comprehensive. Gustav 
came more from south to north. Katrina came from the east going 
west over Lake Borgne and hit the Lower Ninth Ward in New 
Orleans east. Much, much stronger. The levees held. Now what 
was scary to some people is that the water levels got to the 
maximum levels that that particular levee could handle.
    Ms. Norton. Yes, we saw water going over.
    Mr. Nagin. Yeah, but it was wind. And I think we are going 
to have that even in the best of scenarios; we may have some 
over topping. As long as the levees do not fail and start 
crumbling, I think we will be okay. We have a pumping capacity 
once the water gets in the city and as long as those pumps are 
not under water we should be okay.
    Ms. Norton. Your folks have shown extraordinary courage 
coming back and building and coming back to maintain 
themselves. Can they get insurance on their homes?
    Mr. Nagin. They can get it, but it is very expensive. One 
of the things that most of the coastal communities are 
experiencing is increased cost of insurance. At the time when 
the insurance companies are recording record profits, it is 
really kind of puzzling to me.
    Ms. Norton. Really at some point we are going to have to do 
a hearing to see whether or not it is possible. I mean people 
coming back, I know some of them can't afford insurance. They 
are taking their chances because of a love of New Orleans.
    Mr. Nagin. Yes.
    Ms. Norton. We have to come to grips whether or not it is 
possible to rebuild whole areas if insurance is unavailable. 
Now there is flood insurance, there are some kinds of insurance 
that the Congress makes available.
    Mr. Nagin. Now, Madam Chairperson, if I could get this 
Committee to understand one thing, even if you can get 
insurance in Louisiana your deductible is the problem--the 
rules were changed right after Katrina. There are no longer 
$500--and I don't know if anybody else is experiencing this, 
whether they are experiencing it in Florida--there are no 
longer $500 to $1,000 deductibles. They are a percentage of the 
value of your home. My personal deductible at my home is 
probably $6,000. And I hear people tell me this story; it is 
like 3 percent or 2 percent of the value of your home. So even 
if you have insurance, unless you have a major catastrophe, 
normally you are self-insured.
    Ms. Norton. You are self-insured. Are people building, are 
people rebuilding? What does that say about a business, are 
they self-insured, too?
    Mr. Nagin. No, businesses are handled a little differently. 
They have a higher deductible, but a business can only handle 
that kind of situation.
    Ms. Norton. Mr. Graves, do you have a question for him? I 
have a series of questions. I want to make sure anybody else 
that has questions also get a chance that come from your own 
answers.
    I need to ask you, I remember you came to my office, you 
were very concerned that people were meeting a date where they 
had to get out of shelters and the city didn't have the housing 
to accommodate these people. We have had a hearing because many 
of these needed continuing case management. As a result of that 
hearing, we asked FEMA to extend the case management for these 
residents. Many of them from Louisiana was extended until March 
2009. And we are prepared to asked again. We realize we are not 
dealing with people who have simply been displaced. We are 
often dealing with the elderly, with disabled people, and 
people who need very special help. Are those people still in 
trailers and are they formaldehyde trailers? Need I say 
formaldehyde infected trailers?
    Mr. Nagin. Yes. There are still a significant number of our 
citizens who are still in----
    Ms. Norton. What percentage of those displaced would you 
imagine or believe are still in trailers in particular?
    Mr. Nagin. There are still about 3,000 trailers in the City 
of New Orleans. I think the last number I saw there was about 
6,000 trailers statewide. That is units. So there are two to 
three people living in each trailer. So the math is pretty 
easy. Those benefits are scheduled to expire, not only those 
but anyone in an apartment complex or in a hotel, in March of 
2009. We still do not have the Road Home checks, as I mentioned 
in my testimony. There is still about 30 percent of our 
citizens who still have not received those benefits. So they 
are forced to live in a trailer or in temporary housing. Until 
the checks are processed and the trailers are removed, I would 
argue that the benefits should be extended at least until the 
end of 2009.
    Ms. Norton. When you talk about people having not received 
their Road Home checks, you really raise this question that we 
need to understand, and that is that Congress has appropriated 
a great deal more money.
    Mr. Nagin. Yes.
    Ms. Norton. Than has been distributed. Now people are 
always afraid when you have that much money that has been 
authorized, and they want to make sure we are not in a 
situation where we have an unmanageable distribution and 
problems occur. What is your view of the pace of distribution 
of authorized funds to the city? Are you able to get the funds 
that are authorized?
    Mr. Nagin. It is a painfully slow process. Whether it is 
Road Home checks or whether it is FEMA reimbursements, you name 
it, whether it is hazard--and we haven't started to tackle 
hazard mitigation dollars in a real way. There is still $1.2 
billion worth of hazard mitigation money that the State is 
trying to figure out how to spend. The regulations are complex 
and the money flows slowly.
    Just to give you an example, the difference between the 
amount of money we think we need to fix all the public 
facilities that were damaged during Katrina_that we feel as 
though we need_and what has been appropriated or authorized by 
the FEMA PW process is about 40 percent. And the number goes up 
but we still are nowhere there.
    Ms. Norton. Forty percent.
    Mr. Nagin. Forty percent of the value that we think we need 
to repair a lot of these public facilities.
    Ms. Norton. So what kinds of public facilities are not up, 
for example?
    Mr. Nagin. You name it, fire stations, police stations, 
community centers, playgrounds, parks. We got our criminal 
justice system_the main complex up, but we still have some work 
to do. So we are actually managing right now about 400 
different projects that are at some various stages in the 
process of being reimbursed, and it is just complex.
    Ms. Norton. I want you to know, Mr. Mayor, that this 
Subcommittee is experiencing some frustration because this 
Subcommittee processed through a bill which we proudly named 
the Katrina and Rita Recovery Facilitation Act of 2008. It was 
drawn after consultation with you, the then Governor. We had 
hearings here where Members, the entire delegation came to 
testify. The whole point was to try to find quick fixes for New 
Orleans and Mississippi in particular. These quick fixes would 
apply under the Stafford Act only to the Katrina ravaged areas. 
This became while we processed the bill--it was a leadership 
bill, it really began at the top. So our Subcommittee, we put 
it through, it went through as one of the first bills. Then we 
put it to the repository of all bills that then go to sleep. 
Now this one didn't go to sleep--and perhaps you know more than 
we know. This bill contains some of what we know the State 
needs. Perhaps the cardinal feature was the waiver of the 
Stateshare of much of the funding, 100 percent funding. So I 
have to ask you without that bill, are you managing to come up 
with a State share?
    Mr. Nagin. The State has appropriated the money. They 
pledged, the Governor has pledged to present the match. But 
what we are hearing from the Corps of Engineers, if you are 
talking levee protection is that they need an appropriation at 
the Federal level to award the contracts because they are going 
to get a reimbursement from the State. And, because they don't 
have that money appropriated they cannot move forward with some 
of the contracts to finish up the 100-year flood protection.
    So like I said, this is very complex and frustrating at 
times because a lot of the congressional intent--we come to 
you, you do great work and then there is some bureaucratic rule 
that slows things down or----
    Ms. Norton. The bureaucratic rule is called the Senate of 
the United States in this case. Now I know that my good friend 
and your Senator has been trying her best to get this bill out 
and she has more to gain than any other.
    Mr. Nagin. Yes.
    Ms. Norton. But she deals with a body that has trouble 
passing bills because of its rules. Someone mentioned 
alternative dispute resolution. There is an alternative dispute 
resolution section there. There are all kinds of things that 
nobody else will be able to do under the Stafford Act, but that 
you could do because of this constant issue that comes before 
us about a hold up. And again I know that the bill has been 
reported out. I have before me the report. I cannot believe 
that the Senate will leave without getting that bill done. And 
I have every hope that they will. Sometimes in the very last 
days people see the kinds of things that they simply can't 
leave town without doing. That is why we are working now on the 
collapse of Wall Street.
    I want to just ask you a couple more questions that we need 
to understand. The trailers bothered everybody. Not only do we 
have hearings in my other Committee, the Oversight Committee--
which is basically an investigatory Committee--had hearings 
showing its shameful way in which the notion that there was 
even formaldehyde in the trailers finally got exposed.
    Now, you have for interim housing something that would be 
very important for the Nation if it works, Katrina cottages 
that were apparently initiated 2 years ago. I don't know how 
much of the $450 million has come down to allow the Katrina 
cottages. Tell us about the Katrina cottages, what is the 
difference between them and other housing and the temporary 
housing and how many cottages or whether those cottages are 
ongoing or are a viable way to put people in Louisiana at this 
time.
    Mr. Nagin. Well, the Katrina cottage is a concept that I 
think the State of Louisiana and Mississippi both embraced. It 
is my understanding that Mississippi was able to move a little 
quicker in setting up their program than Louisiana.
    Ms. Norton. So what is the difference? Tell us what a 
Katrina cottage is and what is the difference between it and 
other temporary housing?
    Mr. Nagin. It is a small modular home, if you will, 600 to 
800 square feet, I think. It is something that can really be 
constructed very quickly and put up in a manner that would 
allow citizens to have a dwelling place other than a FEMA 
trailer. The State of Louisiana has struggled with that 
program. I don't think we have any in the city of New Orleans 
that I am aware of.
    Ms. Norton. So it has to come through the State, the funds 
have to come through the State? So there is not a single 
Katrina cottage in New Orleans?
    Mr. Nagin. Not that I am aware of, Madam Chair.
    Ms. Norton. I know you would know.
    Mr. Nagin. A big part of the disaster that has been 
frustrating to me, and I understand why it is done, but the 
Federal flow of funds always goes through our State first. Then 
not only am I fighting with one bureaucracy, but I have to 
fight through two before I even get to my own bureaucracy, so 
that has been really tough to deal with.
    Ms. Norton. Finally, let me ask you, because our concern is 
also about the very poorest people for whom permanent housing 
would be hardest to come by, and there was great controversy 
because some of the public housing was torn down.
    Mr. Nagin. Yes.
    Ms. Norton. And I would like to know what alternative there 
is for people who might have found homes in public housing. Is 
there comparable housing? What about FEMA and HUD's role in 
rehabbing public housing?
    Mr. Nagin. As far as public housing is concerned we worked 
really hard with HUD and with Congress to make sure that there 
was a firm commitment that every one of the public housing 
residents that were there pre-Katrina, which was 5,200 units, 
there would be permanent support of vouchers that would 
accommodate them until their homes were rebuilt. We have four 
major housing units.
    Ms. Norton. Until the public housing was rebuilt?
    Mr. Nagin. Until the public housing is rebuilt. So they are 
supposed to have--and we have not gotten any contrary 
information that suggests anything otherwise--if they are in 
New Orleans they have supportive housing; and if they are in 
another location they have supportive housing. And that should 
stay in effect until the new units are constructed.
    Ms. Norton. Are there going to be new units? I know the 
difficulties in public housing. We have had the same 
difficulties here, just as we had difficulties in our school. 
And I commend you on your charter schools. I think charter 
schools are the best thing since sliced bread because they are 
small schools, they are alternatives, they will keep people in 
the city, they do as well as the public schools usually. And 
because they are small, they are publicly funded, they are 
accountable in the same way, in order to keep from building 
public housing, as all cities,.
    New Orleans was like every other city. They built the 
public housing where they could, large numbers of units in one 
place. You put a lot of poor people with no upward mobility, no 
way to get out, no jobs, and then you are surprised that there 
are problems there.
    Is there going to be public housing in New Orleans and how 
will you construct it? I mean, you have land now that was not 
available before. Do you believe you will be able to replace 
those units or come anywhere close to it with public housing 
units of some kind, perhaps spread and not bunched together?
    Mr. Nagin. We are working with HUD, as we speak, to 
dedensify a lot of the public housing units and not have a 
concentration of poverty in any one particular section of the 
city. We are going forward with some Hope 6-like developments, 
which are mixed income. We have a plan in place to restore most 
but not all of the public housing units that we had pre-
Katrina. But anyone who does not go into a unit is guaranteed 
to have a voucher. They will be able to go into the community 
and be involved in a mixed-income neighborhood in that respect 
also. That seems to be moving forward.
    Our challenge, though, is that HUD is making noises that 
the financial crisis that we are in is starting to strain those 
four developments. And they have asked us to help lobby for a 
couple of things. One is the 901 fundability issue where they 
have some vouchers that are not being utilized and they want to 
use those to fill some gaps in this construction. We have been 
talking to people about that.
    Ms. Norton. Before you leave, we are going to have the Red 
Cross before us as well as GAO. And you know that the Red Cross 
in many ways has served the country heroically, very often with 
volunteers. Of course, they do have some staff. How would you 
evaluate the role of the Red Cross in this last hurricane, for 
example?
    Mr. Nagin. Well, the Red Cross has been there all the time 
in all the disasters. If I had any complaints with the Red 
Cross, it is that during the disaster they tend to go up north 
to kind of get out of harm's way, and I understand that. So 
getting back into the disaster area was a little bit of a 
challenge during Katrina. But for the most part I think they 
are a valuable organization. I think they are probably 
stretched to the limit right now and probably need some more 
support. And I think they come into a community right after a 
disaster and do really good work of feeding our citizens.
    Ms. Norton. Well, I want to thank you, Mayor Nagin. We have 
kept you longer than we might have had we had an opportunity to 
speak with you about the progress in Louisiana since then. And 
now we not only had to ask you about that, but we had to hear 
about these latest visitors. And it has been very valuable 
testimony, very helpful to us. And I thank you very much for 
coming today.
    Mr. Nagin. I thank this Committee and I thank you, 
Chairlady Norton, for everything that you have done. New 
Orleans wouldn't be back to the level it is, we are at about 75 
percent there, if it wasn't for this Committee and Members of 
Congress, so we are indebted to you all. Thank you.
    Ms. Norton. Thank you, sir. Could I ask Admiral Harvey 
Johnson, the Deputy Administrator and Chief Operating Officer 
of FEMA, if he would come forward and offer his testimony? 
Thank you Admiral Johnson, you may proceed.

 TESTIMONY OF ADMIRAL HARVEY JOHNSON, DEPUTY ADMINISTRATOR AND 
  CHIEF OPERATING OFFICER, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Admiral Johnson. Good afternoon, Chairwoman Norton and 
Members of the Committee. I am pleased to be here today to 
discuss the National Disaster Housing Strategy and our response 
thus far to 2008 hurricane season. Fortuitously, as we are now 
in the recovery phase of Hurricanes Gustav and Ike, these two 
topics have become intertwined as we also were able to employ 
many elements of the strategy in the ongoing response efforts.
    However, before I go any further I do want to thank you, 
Madam Chairwoman, for allowing us to delay the hearing that was 
scheduled for September 11. It was sort of to our benefit, and 
I hope to yours, to delay and combine the hearings today.
    I do believe that the draft National Disaster Housing 
Strategy is likely one of the most significant documents 
prepared by FEMA and released under the umbrella of the 
national response framework. The strategy describes how the 
Nation currently provides housing to those affected by 
disaster, and, more importantly, it charts a new direction for 
our disaster housing efforts must focus if we as a Nation are 
to be better able to understand and meet the emergent needs of 
disaster housing needs of victims and communities.
    The strategy captures lessons learned from Hurricane 
Katrina and subsequent disasters, embraces the larger issues of 
disaster victims beyond simply providing a structure, seeks 
innovative and creative housing options, elevates the issues of 
safety and security and access to those with disabilities, 
emphasizes again and again the value of planning, 
differentiates a catastrophe above all other disasters, and 
suggests that these issues merit full attention before and 
between disasters, not merely just in time short-term sporadic 
attention after a specific disaster.
    A national strategy is the first step in developing 
integrated disaster housing plans across the Nation that all 
support a common vision and goal. This strategy would be a 
common basis to synchronize disaster housing plans at the 
State, local and Federal level.
    Addressing the challenge of disaster housing should not be 
driven from the Federal level; rather, we must provide the 
leadership, set the pace, and actively encourage and gain 
commitment from individuals, communities, States, Federal 
partners, nongovernment organizations and the private sector.
    This strategy also embraces the need for immediate action 
by framing FEMA's establishment of a National Disaster Housing 
Task Force, charts specifically to aggressively implement the 
strategy. In fact, since the release of the strategy for public 
comment, FEMA has now activated the National Disaster Housing 
Task Force. And though it is still in the embryonic stage of 
development it is deployed to Austin, Texas and to Baton Rouge, 
Louisiana, to work with the State-led housing task forces in 
responding to Gustav and to Ike.
    I would also like to comment on the combined activities of 
the Federal, State and local efforts in response to these two 
hurricanes. These two storms both projected at one time that a 
life span Category 3 or stronger storms at landfall both had 
the capacity to impose catastrophic damage simultaneously to 
multiple States along the Gulf Coast. Each posed a worst-
nightmare scenario: one, a direct hit on New Orleans, and the 
other to communities in the core of our Nation's energy sector 
in and around the complexes of Houston, Port Arthur, and Lake 
Charles. And each made landfall only 12 days apart.
    These storms served as proctor to the most severe tests of 
the National, State and local individual preparedness since 
Hurricanes Katrina and Rita. And where the 2005 storms exposed 
the Nation to a lack of preparedness, to indecision, and an 
absence of coordination across all levels of government and 
among individuals, the test of Hurricanes Gustav and Ike 
presented just the opposite.
    The response and, thus far, the recovery from these two 
2008 storms provides evidence of extensive levels of 
preparedness, decisiveness by elected and appointed officials 
at every level of government, as well as by citizens who 
elected to evacuate in record numbers at a level of engaged 
partnership among States with the Federal Government to put the 
right capability in the right place at the right time to save 
lives, to minimize damage, and to establish a much smoother 
road to recovery. When our combined efforts were not perfect, I 
believe that combined efforts at the Federal, State, and local 
levels made great strides to reinstill confidence in the 
American public that our system emergency management 
preparedness can and does work effectively.
    In my view, there are three keys to our combined response: 
preparedness, command and coordination, and strong 
partnerships.
    And the first, FEMA and our State and Federal partners 
worked purposefully together to coordinate, assess, plan, 
train, exercise and evaluate to ensure that we each had 
independently and interdependently the capabilities needed to 
succeed in disaster response and recovery. And second, there 
was solid coordination and command at the Federal, State and 
local level. The emergency management structures in the State 
of Texas and Louisiana were impressive.
    At the Federal level, and consistent with the national 
response framework, we were fully integrated into the unified 
command with a State. Together we were forward looking, we 
executed our checklist thoughtfully and methodically, we 
adapted with a change in route and intensity to the storms, and 
we provided the public with timely and consistent warnings and 
messages. We performed as we planned and trained and we did 
well by doing so.
    And I wish to note that Governors, parish presidents, 
mayors and other elected officials fulfilled their 
responsibilities visibly and decisively as commanders, 
coordinators, and communicators. Secretary Chertoff was 
deployed forward himself in both States prior to and 
immediately following hurricanes, as was Administrator 
Paulison. They encouraged evacuation, they provided assurance 
that all actions that could be taken were being taken, and they 
actively got into the response and recovery, though a number of 
challenges and tried moments, forthrightly and with directness 
and without name-calling or finger-pointing.
    Thirdly, there was a strengthened partnership among the 
Federal agencies, and with States and with the local 
communities and among nongovernmental agencies from the 
Secretary to Governor to mayor, from Federal coordinating 
officer to State coordinating officer, and consistently through 
the field where there were individual team members who 
coordinated airbus to train evacuations, planned out delivery 
of commodities, registered evacuees, opened Federal medical 
shelters, opened medical stations and staffed deployable 
medical assistance teams. And they did so through the combined 
efforts and were impressive as they performed.
    Madam Chairwoman, I don't want to view the response and 
recovery of these hurricanes through rose-colored glasses, but 
collectively we demonstrated a capability to respond 
effectively to disaster. At times these efforts were admittedly 
a bit rough. Not all evolutions were according to plan. And we 
learned many lessons. We were challenged to get all the 
commodities to the right place at the right time. We learned 
that evacuation, for all of its challenges, can sometimes be 
easier than measuring the reentry of evacuees back in the 
damaged and marginally safe communities and homesteads.
    And we know that we need to strengthen certain elements of 
our workforce and to find ways to make registration process 
more timely and efficient. But from where I sit, the public was 
well served and we made great strides in instilling confidence 
in the Federal, State and local emergency management system and 
showed that it can work together effectively.
    Thank you for your time. I will be glad to answer your 
questions.
    Ms. Norton. Well, thank you Mr. Johnson. And may I commend 
FEMA for the assistance you gave the State and the city in the 
evacuation, apparently evacuation also in Texas. And you had 
these events back to back or front to front.
    Could I ask how the decision to evacuate is made, who makes 
it, what parties are involved, using as an example Ike and 
Gustav that has just occurred.
    Admiral Johnson. I think certainly the one who makes the 
decision to evacuate are the local elected officials. And I 
think you had a good example of that in Mayor Nagin, where all 
were concerned that after 2 years of like hurricanes that 
people might take the next hurricane too likely. Mayor Nagin 
and others stood up in front of their constituents and talked 
about the dangers of Hurricane Gustav, that at the time was a 
Category 4 hurricane, and made it very real from the local 
elected officials that people must evacuate. And so it is to 
the credit of Mayor Nagin, of parish presidents across 
Louisiana, of county judges in Texas, and Hurricane Ike, to 
make those calls early for mandatory evacuation and for 
voluntary evacuation. And as the mayor reported in his 
testimony, 97 percent of New Orleans evacuated, and that is 
setting a record for what can be done when the system works as 
it should.
    Ms. Norton. Now, most of those went on their own, didn't 
they? Didn't you have more people use their own transportation 
means than before, and, if so, why?
    Admiral Johnson. There were. I think I have seen estimates 
that maybe 1.9 million people across southern Louisiana 
evacuated, mostly on their own, because they had the means to 
do so. And in some parishes, in some cities, there are a 
population that don't have the means to do so. And they need 
assistance from the State and local government and from the 
Federal Government to evacuate safely.
    Ms. Norton. You perhaps heard me ask Mayor Nagin about the 
people who were warehoused, and he indicates that the State was 
responsible for finding places beyond boundaries of the local 
jurisdiction. Does the State have any communication with FEMA? 
Does FEMA have any responsibility since you are reliant so much 
on the States, for example, in your State housing plan, to 
ascertain that the State has found suitable facilities?
    Admiral Johnson. No ma'am, FEMA doesn't have 
responsibility. The responsibility lies with the State. But of 
course in hurricane planning we work with the State, we work 
with the Red Cross, to identify requirements and standards for 
shelters. And it is our expectation that as the State 
establishes State shelters, that they will do so following 
those recognized standards for service, for cleanliness, for 
security, for safety, for medical support, for food and water 
and those types of things.
    In Federal shelters, for example in the shelters that we 
establish with State out-of-state, we actually have a host 
State agreement where we lay out and identify what services we 
expect a host State to provide shelterees in order to be 
supported and reimbursed by FEMA.
    Ms. Norton. That is the out-of-state host State. But what 
about the in-state, the State that is primarily involved?
    Admiral Johnson. In-state, it is the State's 
responsibility.
    Ms. Norton. Do you tell them what you expect as well? Why 
tell the people out-of-state without telling the people in the 
State who may be responsible for most of the citizens what to 
expect, at least what to expect?
    Admiral Johnson. I think, being fair to the State, they had 
a number of State shelters, and we have heard about a couple of 
them, so there were a number of State shelters.
    Ms. Norton. Well, I want to ask about one. I can't imagine 
if there were a number of State shelters how 1,000 people wound 
up crowded in a warehouse in northern Louisiana, crowded in so 
tightly, with absolutely no way to bathe, feeling like herded 
animals. How did that happen if there were a number of State 
shelters? Were they crowded too?
    Admiral Johnson. Well, Madam Chairwoman, I think many 
people are asking that exact question: How did that happen? No 
one would have wanted it to happen. And it certainly does not 
comport with any requirements or guidelines.
    Ms. Norton. So there are guidelines that the State should 
follow in designating shelters within State?
    Admiral Johnson. Well, the Red Cross has standards for 
their shelters, and we certainly encourage and adopt those 
standards. And we encourages States to use those as they 
establish shelters.
    Ms. Norton. So you would find that the warehouse of 4,000 
people with no way to bathe, and cot against cot, did not meet 
the standards that FEMA recommends to States?
    Admiral Johnson. They would not meet our standards, and I 
think Governor Jindal will tell you that they do not meet his 
standards either.
    Ms. Norton. I recognize the State has got to come to grips 
with that itself. But I am very concerned for FEMA in this 
regard. There were newspaper reports that were fairly chilling 
that, quote, many poor residents avowing never again, that 
never again were they going to get on a bus to be warehoused 
this way, they would rather ride it out.
    Now, that is the last thing we want to hear, because then 
it gets back to FEMA. That is why I am suggesting that you 
review your responsibility to advise the State. States may or 
may not be ready to shelter people because States aren't in the 
same business FEMA is, which is knowing much more about this. 
And it does seem to me that if States that shelter people from 
other States have guidelines, there is no reason why States 
themselves shouldn't have such guidelines.
    And we would ask that those responsibility of States not be 
recommendations. Of course it is--it could be, for that matter, 
an emergency where you could only do so much.
    There was warning of this hurricane. I talked with Mr. 
Paulison. He told me about out-of-state schools, places on 
military bases, he told me about places in community college 
facilities. And so I was stunned to hear that there was anybody 
who was housed in Katrina-like conditions.
    The one thing we are not going to tolerate is finger-
pointing. We are really not going to tolerate, well, the State 
should have done that or the city should have done that. And 
the reason we are not going to is because if in fact these 
people don't evacuate next time, then of course the whole job 
will fall to FEMA to do something about people left in place. 
The Federal Government will have to evacuate them in very 
costly ways, as we did with people left behind before.
    So I am very concerned that Louisiana didn't meet its 
responsibilities and apparently didn't feel that it had to do 
anything but this, had plenty of time to prepare. After 
Katrina, it should have had shelters all over the State nearby 
ready to receive people.
    So just in the planning process that FEMA supervises, I am 
at a loss to understand this, and very concerned about it not 
only because of the condition of those people, because it may 
mean that we are going to have another problem the next time.
    Could I ask you in particular about some of the mayor's 
testimony? He indicated that FEMA would not pay, in his written 
testimony, for foundation demolition which could spur, of 
course, rebuilding and economic development. And he also said 
that you did not support panelized or modular construction for 
damaged properties. Would you explain why in both of those 
circumstances?
    Admiral Johnson. Certainly. In the demolition of a 
structure, FEMA has traditionally paid for the demolition of 
the structure itself but has not paid for the removal of the 
slab. That becomes a cost that, in Louisiana, the State has 
paid for some of that out of their CDBG funds.
    Ms. Norton. Removal of the slab; do you demolish it?
    Admiral Johnson. Right.
    Ms. Norton. And what is left of it, FEMA will not pay to 
remove?
    Admiral Johnson. That is correct. Our job is to remove the 
health and safety impact on the community, so in our view that 
is to demolish the structure itself.
    Ms. Norton. I don't know if that is one of the quick fixes 
that we put into the act that we are still waiting to come out 
of the Senate. But I have to say if we were willing to waive 
the State's share, the notion of not paying to remove what you 
demolished does strike me as being a very frustrating way to 
proceed, and maybe that we have to do more if you believe that 
you are proscribed by statute. And I would say then you 
shouldn't demolish unless there really is a danger, because you 
are making a mess.
    Now, I understand--what is this--FEMA resolutions do permit 
debris removal. This is not debris? You don't characterize this 
as debris for economic recovery? One of the things we had with 
FEMA was that it was reading its regulations so narrowly that 
we had to pass a whole bill. And what I objected to was that we 
thought a fair reading of the bill often meant that you could 
have proceeded. And instead we had to enact a whole bill.
    Now we have passed resolutions to permit debris removal for 
economic recovery, and you are telling me that you believe that 
you have to leave those slabs there. That is frustrating. I 
need you to look again and have your counsel review whether or 
not, in light of the resolutions--we will give you the 
numbers--there may be some removal of those.
    Now, can you talk about the panelized and modular 
construction for damaged property? You don't believe you can 
pay for that?
    Admiral Johnson. The Katrina cottage that you discussed 
with Mayor Nagin, as you recall, Congress gave $400 million 2 
years ago to have an alternate housing pilot project among the 
States on the Gulf Coast. Mississippi, as the mayor indicated, 
got out ahead of the other States, and they have procured and 
installed these Mississippi cottages, now sometimes called 
Katrina cottages. They are a panelized house. They are in very 
good shape.
    Ms. Norton. So they are done with modular construction and 
panelized houses. So you will pay for it?
    Admiral Johnson. Well, these are modular--it is a modular 
construction. It is an improvement on a mobile home. I don't 
think I would call it panelized housing. It is a different 
style of housing. Panelized housing is much, much more 
expensive, and basically is sort of like a house in a box. But 
this cottage is transportable and it meets--again, it is an 
alternative to a mobile home or a travel trailer. The States of 
Texas, Louisiana, and Alabama also receive funding in this 
pilot project, but they have yet to produce a unit, and 
actually installed one for testing.
    Ms. Norton. So what do you think is the hold-up in those 
States?
    Admiral Johnson. It has taken those States longer to 
organize their governance structure to identify what their 
contract would be and how they would actually choose sites and 
install units. They have each had varying degrees of 
difficulty, but they are all about to come on line and soon 
will produce their units for testing.
    Ms. Norton. We are very anxious to see how those units 
work, particularly the fun we had with trailers.
    I called it a resolution; I am sorry. I asked your counsel 
to look at debris removal regulation 44, CFR 206.224(b)(3). I 
believe you--based on this resolution, the staff tells me you 
do have the authority to remove these slabs. We are just trying 
to do what we can to move this thing along. So I would ask your 
reporters to report back to us within 30 days what your 
counsel's view is.
    Admiral Johnson. Certainly.
    Ms. Norton. I am going to ask the Ranking Member if he has 
any questions for you, Admiral Johnson.
    Mr. Graves. Thank you, Madam Chair. Thanks, Admiral, for 
coming in. I want to talk to you about, or have you talk to me 
about the transitional voucher program.
    During Hurricane Ike it has been reported that 4,000 people 
checked into hotels underneath that program, but there were 
107,000 that qualified for it, but there wasn't any space 
available for them. I am curious how you are going to deal with 
that or what you are looking at to try to deal with that.
    Admiral Johnson. The transitional housing program, 
sheltering, that we put out basically does say that we need 
very minimum requirements; that a person can call and register 
with FEMA and they would be assigned an authentication code. 
They could go to a hotel or motel that is part of the program. 
And thousands are. I think there are 8,000 hotel and motels 
that participate. And based on them having a room, they will 
accept an applicant and FEMA pays the bill.
    But as you would imagine during a disaster, these hotels 
and motels are filled and they don't have a whole lot of spaces 
available. We have heard reports that in some areas, because of 
prior bookings at hotels and reservations, that they didn't 
have room. And so we have checked them to find out, to make 
sure that all those who comply with the program and participate 
actually fully participate. But we had a number of people--
about every day 500 or more people move in and move out. It is 
a transitory type of a thing. And I think it has been fairly 
successful. We had about 800 or 900 at one time in Louisiana, 
and we have had up to 3,500 in Texas who have taken advantage 
of the program.
    Mr. Graves. And then one other question. The Red Cross has 
requested a $150 million bailout for its disaster operations, 
and I am just curious what the administration's position is on 
this.
    Admiral Johnson. I am not sure what the administration's 
position is, if they have actually offered the position. We 
have certainly--one of our strongest partners in preparedness, 
as well as in response to recovery, is the Red Cross. We have a 
great relationship with them. We have their staff members on 
our staff. We consult with the Red Cross. We establish our 
policies and do as many policies as we can in concert with the 
Red Cross. We were able to work with them during feeding 
kitchens, for example, in both Gustav and Ike. And so I am 
aware of the proposal and believe that there is support for 
that.
    Mr. Graves. Thanks, Madam Chair.
    Ms. Norton. Thank you, Mr. Graves. Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chair. Thank you, Mr. Johnson, 
for being here.
    Mr. Johnson, the FEMA interim rule that eliminates 
administrative allowance in-state management administrative 
allowance, I want to ask you a couple of questions. They are 
utilized in New York to cover, as I imagine in many States, to 
cover direct and indirect costs. According to the National 
Emergency Management Association its costs States an average of 
6.21 percent of their public assistance allocation to manage 
the administrative PA program, yet FEMA's rule would cap the 
allowance at 3.34 percent and States will be forced to cover 
that gap of 2.87 percent. I mean, in New York we estimate that 
is going to cost about $33 million.
    Any thoughts on how the States are going to make that up or 
what we are going to do, or any rationale as to why FEMA has 
cut that out?
    Admiral Johnson. We had a rulemaking out--covering 
administrative costs is always a controversial subject. We want 
the States to administer as much of the response recovery as 
they can. We want to reimburse them fairly for the cost of that 
administration. And it becomes a debate between us sometimes as 
to exactly what are those costs and how do we reimburse the 
right amount.
    We put out a rulemaking some time ago that offered a 
construct that was a change in the way we did business. We felt 
there was a bit of misinformation about that. It wasn't very 
well understood. And we have recently pulled back that 
rulemaking and are engaged now with NEMA and other 
representatives, again in the States, and talking about how we 
can fairly arrive at a formula that will reimburse the cost of 
the States.
    So it is still active discussion between us and the States 
to make sure we can identify what those costs are. Like 
anything else, I think that you have seen what are the numbers 
and what makes up those numbers. And we would be glad to meet 
with you or your staff and go through what our processes are 
and give you a sense of what our assumptions are and how we are 
engaged in discussions on the administrative cost.
    Mr. Arcuri. I would appreciate that. It just seems to me 
that with global warming, with the change in the environment, 
we are seeing more natural disasters. And this is not the time 
that we want to cut out programs that the States need but, 
rather, help the States more if we can. So I would greatly 
appreciate the opportunity for us to get together and chat 
about it. Thank you, sir.
    Admiral Johnson. Yes, sir.
    Mr. Arcuri. [presiding.] We are beyond the midpoint of the 
2008 hurricane season. Do you think that we are in a position 
where we are going to be able to respond if there are any 
additional hurricanes that we encounter this year?
    Admiral Johnson. Yes, sir. We certainly think that--we have 
gone through about 5 weeks now. And hurricanes, this should 
only happen on weekends. But we went through about 5 weeks 
between Hurricane Dolly, Fran, Gustav, Ike, and I think that we 
have been tested, all of us, on a Federal, State and local 
level in this hurricane season, and we have done very, very 
well. I think it affirmed for us that we have invested a lot of 
time and resources over the last 2 years in fairly light 
hurricane seasons to focus on preparedness, on command and 
control, and on partnerships. And I think we have shown that 
that effort was worth its investment. And I think we have, 
again, reinstilled confidence that we can respond well to 
disasters. Part of our focus has been to put a stake in the 
heart of Katrina and put that behind us. And I hope that by the 
performance in Gustav and Ike so far that we are able to do 
that.
    Mr. Arcuri. Obviously it is a learning process. Did we 
learn anything so far in this hurricane season that you can 
tell us? We are always asking you about things. Are there 
things that we could do that could help FEMA in the future that 
we learned this year?
    Admiral Johnson. First of all, this Subcommittee is always 
intent on helping FEMA learn. And sometimes it is tough love, 
but we appreciate it. But I think from this hurricane season, 
maybe a couple of things to point out. First, as was indicated, 
commodities really point up--that is a problem we didn't 
expect.
    Now, how that system typically works is FEMA provides 
commodities to the State's staging area and the State manages 
commodities from there to distribution to PODs, to four points 
where they distribute PODs to commodities individuals. It 
didn't work very well. What we found in a large storm, we could 
move hundreds of truckloads of supplies into a staging area, 
but we couldn't get them out very efficiently. We actually sent 
our director of logistics, Eric Smith, down to Louisiana and 
sent him again to Houston to work through these issues about 
how do we really distribute commodities and get them out on 
time to the right place? And it is a very difficult, complex 
process and we eventually worked through it.
    So I think one of our focuses for next hurricane season is 
to work with the States on the full supply chain, end-to-end 
logistics, and to see how we can make sure we get the right 
supplies to the right place at the right time.
    I think a second area that we are working on is 
registration. And we have made huge improvements over Katrina. 
We have more than 1 million people who have registered between 
Gustav and Ike. At one point, at the same point in time, 12 
days after the storm, we had 500,000 registered in Gustav and 
there were 350,000, same point in time, for Katrina. So they 
had huge improvements. And yet back-to-back storms really 
tested our system.
    What we have found is that we need to look more at new 
technology and to establish kiosk computer centers where people 
can register more on line. And so I think we need to look at 
new technologies to be more efficient in registrations. Those 
are two practical things that have caught us up a little bit in 
response and recovery that we are going to work on for the next 
hurricane season.
    Mr. Arcuri. Thank you very much, Mr. Johnson, I appreciate 
it. Thank you, Madam Chair.
    Ms. Norton. Thank you Mr. Arcuri.
    Let me ask you, I suppose perhaps I don't fully appreciate 
the difficulty of getting supplies out if there is planning. 
For example, if there are--if the State is required to say 
where the shelters will be in the event of a disaster it should 
not even be difficult to break that down in the event of a 
Category 2 disaster, 3 disaster: Where will the shelters be? If 
the States are required to do that, then everything, it seems 
to me, should flow from that.
    If I know that the shelters, in the case of a Category 3 
type, will be in northern Louisiana, then I have a geographical 
area and regional area that I know I have to get to.
    I don't understand why preplanning won't take care of most 
of the issue. You make it sound as if you bring supplies in and 
then decide, oh my God, how are we going to get it out there? 
Indeed, I heard Secretary Chertoff say on television or radio 
that he had 18-ton trucks, or whatever, ready to go into Texas, 
but then they had to clear the roads.
    Well, Galveston, for example, was always going to be a 
complete disaster. Flooding was predicted to be the major 
issue. So I don't even understand 18-wheelers. I mean are 
helicopters, for example, an alternative to get food in, if as 
much food has not been prepositioned as you anticipated? 
Indeed, most of it should have been prepositioned. So I guess 
once you know where the shelters will be in the event of 
Categories 2, 3, 4, 5, it does seem to me that you have 
something going for you. You might not know where it is going 
to strike, but if planning means anything, then once it hits, 
you know exactly what you have got to do and you have 
prepositioned transportation of the kind that will be 
necessary, supplies of the kind that be will be necessary.
    And I hate to use this analogy, but I am going to have to, 
and maybe we need to consult with them. I bet the military will 
know what to do. They have got to figure out in advance what to 
do when they have got people located in much more unpredictable 
conditions than a hurricane.
    So I think this raises questions of planning, planning with 
the State, and particularly since your housing strategy says 
that you are very reliant upon the State, establishing some 
closer nexus besides we-recommend-to-the-State and we-hope-we-
will-do-it kinds of things, because it is going to be in your 
hands largely, normally, to get supplies to areas that the 
State will often lack the kinds of transportation means to 
accomplish. Witness what the Secretary was trying to do with 
18-wheelers.
    Admiral Johnson. Well, Madam Chair, what sounds easy in 
this room, absent a disaster----
    Ms. Norton. It isn't easy. It is planning. Planning is the 
hard part.
    Admiral Johnson. What sounds easy in this room is if we 
were to lay out a plan for PODs in your city, in Washington, 
D.C., and expect that that plan would work perfectly in a 
disaster, it would be easy and the plan would be good. But what 
happens in reality is that in D.C., in Houston, in New Orleans, 
in Shreveport, as local elected officials evaluate the impact 
in their city, on that very night they determine where do they 
want the PODs established to meet the needs of their citizens, 
looking at who has evacuated, who has not, what part of the 
city has restored and what has not.
    Ms. Norton. And, of course, communication wasn't down as it 
was in Katrina.
    Admiral Johnson. Well, what happens is that every night 
they reestablish where they want PODs. So the plan you had 
before the disaster becomes ineffective when it gets changed 
late at night, and for good reasons. But once you have had a 
lot of PODs and you get a plan late in the evening it is hard 
to move inside--imagine the city of Washington streets. To move 
POD supplies, you need time to physically get it done.
    What happened in Gustav was that because of the reaction of 
the power outage and the change in the dynamics, the plan got 
put together too late in order to move all the trucks in time 
to open the PODs, when people were sitting there waiting.
    Ms. Norton. How do you account for that? Why do you think 
the planning occurred later than it might have?
    Admiral Johnson. I think it was people trying to react to 
the latest information, to really anticipate the needs of their 
citizens. And perhaps they haven't done it before. Everyone 
learned a lot of lessons. And by the third day, POD plans were 
put together at 4 o'clock in the afternoon and gave everyone 
plenty of time to supply for the next day. So they started off 
okay, they got bad for a couple of days, and got fixed again in 
a few more days. So it eventually worked itself out, but it 
took a little bit of adjustments along the way.
    Ms. Norton. How about activated or nonactivated food 
stamps, the frustrations of long lines and getting food stamps? 
It took some days to get them activated. Were you trying to 
avoid fraud and did it need to take so long?
    Admiral Johnson. I personally don't have any knowledge of 
that. That is another program. We observed that happening in 
Louisiana, and perhaps it could happen in Texas, but that is 
beyond FEMA's scope and I don't have any details of that.
    Ms. Norton. Was it beyond FEMA's scope because the State 
provided the food stamp activation?
    Admiral Johnson. Well, the food stamp is with USDA. And the 
USDA worked with the State in trying to coordinate the 
efficient delivery. And I think there were just some logistics 
issues about times and locations, and it got backed up. But I 
don't have any personal acknowledge of that program.
    Ms. Norton. Well, I am not going to ask FEMA to provide us 
with that, but those were among the loudest complaints that we 
heard.
    Now, I would like to quickly go through this housing, new 
housing strategy. And I recognize that you are still in 
comment, that is why we wanted to have the hearing before the 
comment period was ended. It would be helpful for us to know 
what the major elements of the strategy is, especially those 
that differ from FEMA's Disaster Housing Strategy, previous 
Disaster Housing Strategy? How do you think--why do you think 
this is better?
    Admiral Johnson. Well, perhaps the most significant issue 
is it does delineate, again, what are the roles and 
responsibilities of the Federal Government and of the State. 
And during Katrina, where FEMA took over almost the entire 
management of the housing program, those roles and 
responsibilities became too blurred.
    And so, for example, in Texas today, Texas has identified 
today what their level of acceptable formaldehyde is. FEMA 
doesn't have to do that. That is their responsibility. Today 
Texas requested, the government request, first, to provide a 
direct housing program in the city of Orange in Jefferson 
County. That is their job, ask for direct housing. Texas will 
tell us what type of housing they want, which is their job. We 
provide options, they select the option, we implement. And then 
over the next several days now, we will implement that program 
to meet the objectives of the State.
    And so in this case, the State should make those decisions 
that FEMA should implement and help them achieve their 
objectives. That is a primary focus of the strategy.
    Ms. Norton. Now, the States on whom you, of course, rely in 
your housing strategy, I think appropriately so, we then need 
to look at your relationship to the States. Now, according to 
your own people, only eight States have their own disaster 
housing programs. That is bothersome. I am not sure which 
States those are. But how can you rely upon the States if they 
are not required to have a disaster housing program by FEMA?
    Admiral Johnson. Part of what FEMA will do to implement the 
strategy, for example, when we put EMPG grants--and you are 
familiar with those grants, those are focused on emergency 
management--we will require States to devote some portion of 
those grant dollars towards disaster housing planning. We have 
not previously done that.
    In a disaster, for example, in Iowa, in Louisiana, and in 
Texas, we have asked the State to stand up a State-led housing 
task force. They each have complied and done that. So what we 
are finding is the States are receptive to the objectives of 
the strategy. And it has worked out very well thus far in Iowa, 
I think it will work out well in Texas, and work in Louisiana 
with Gustav implementation, and I believe it will work out 
there as well.
    Ms. Norton. Now, we had a situation in Katrina we hope we 
will never have again. But because FEMA is best suited, in fact 
its mission is to help people to find short-term everything, 
everything is supposed to be short term. But after Katrina, as 
you now look at who is left, we find that 12 percent of those 
displaced were over the age of 65.
    Now, how does--your self-sufficiency approach, of course, 
is the correct approach--how does it take into account when we 
are dealing with people who can hardly be expected to start all 
over again in providing housing? Some of them are living in 
senior citizens housing, some of them live in their own homes 
and at their age will not rebuild, and therefore whatever the 
State's responsibility, you are going to be left with these 
displaced victims.
    How do your present policies enable you to in fact account 
for these victims? Because you can keep setting dates when they 
have to find housing all you want to, but the fact is that 
given their vulnerable state, the Nation is going to look to 
you, considering the increasing number of elderly people.
    Consider the baby boom, for example. They are not there 
yet, but they will be there and they are living longer. What is 
needed? Is it new statutory authority? What are you going to do 
now about the thousands who are among those still without 
housing in trailers and otherwise not in permanent homes? How 
do you expect to deal with them in your new housing strategy?
    Admiral Johnson. In a disaster where there are elderly or 
other perhaps more challenged community groups, as in Katrina, 
what will end up happening, I believe, is that some of those 
people will eventually filter into another existing government 
program. For example in HUD, HUD has a program for section 8 
housing. HUD has a program for some of the elderly that have 
been exempted, by the way, for some of the payments on their 
rent. And eventually when it gets down to that smaller group, 
at this point in the disaster they will likely be placed by 
case management into some existing program.
    We are very focused, as are you, on looking and learning 
more about effective case management and how to identify these 
people earlier and to put them in the right program to meet 
their needs.
    Ms. Norton. Long-term needs were really put on the map by 
housing needs by Katrina. And you did something that seemed to 
make sense. States were told that they could lease apartments 
for up to 12 months. But then you told the States to terminate 
those leases after 6 months. How will lease management be 
handled under the new housing strategy?
    Admiral Johnson. That did occur before. And what we have 
now, partially in response to Congressman Graves' question, 
what we have now is our transitional assistance program that we 
just implemented here for Ike and for Gustav, where now we put 
people into hotels and motels and we pay that hotel and motel 
bill. It is 30 days at the outset, and if we need to extend it 
we have the option to do that. And so we will try to manage 
that individually. We can also pay the hotel directly, as in 
this case. We may look at leasing portions of hotels so that we 
can move people in and out of a room that we are already paying 
for.
    So I think we have come up with some good lessons learned. 
We are implementing a more targeted program that allows us to 
manage the cost a lot closer.
    Ms. Norton. We were concerned that the GAO's 2007 report 
said they found certain kinds of shelters without feeding 
capabilities when they did a survey of selected States. Do you 
look at feeding capabilities in particular? I suspect that the 
warehouse in north Louisiana would have been such a place. Must 
a shelter that the State designates have the capacity to feed 
people--kitchen, some way to make sure that food can be stored 
and the like?
    Admiral Johnson. Well, I think perhaps Joe Becker or Red 
Cross can answer that question better than I can. We don't 
require every shelter to have a kitchen, but we require 
shelters to be able to provide food and water and basic life 
sustaining support.
    Ms. Norton. I don't mean an actual kitchen, I mean the 
capacity to have running water, a makeshift kitchen.
    Admiral Johnson. And we require that. We also have worked 
with the Red Cross and with the nongovernment organizations on 
building feeding kitchens and feeding capabilities. For 
example, in Houston where we have shelters, we also now provide 
a separate feeding kitchen that provides--all through Texas I 
think--it is a phenomenal number of meals that are able to be 
prepared every single day. And so we now are taking a much more 
focused look at how we provide shelters and how we provide 
feeding capability.
    Ms. Norton. You work with the State. I need to know within 
30 days what FEMA tells a State its shelters are expected to 
look like.
    Admiral Johnson. Yes ma'am.
    Ms. Norton. This question keeps coming up as I find out 
about the kitchens, the shelters and the feeding. So rather 
than ask that question over again, it would help me with this 
blanket question to say what is it that FEMA tells States that 
a shelter must provide; where shelters must be?
    Admiral Johnson. We can provide that for the record.
    Ms. Norton. Thank you. Finally, I would like to ask you 
about the Red Cross. Our final witness is going to be the GAO 
and the Red Cross. We were very concerned to hear about the 
nonprofits on whom you rely. How much do you rely on them, and 
what is your view of their capacity to handle the mission you 
expect from them as these hurricanes and other disasters become 
more frequent?
    Admiral Johnson. We rely on the Red Cross and nongovernment 
organizations, Catholic Charities, Salvation Army, we rely on 
them a lot. They are in the local area, they know the local 
people, they know the geography, they understand the culture.
    Ms. Norton. Well, what did the GAO mean when they said they 
believe they are overwhelmed? Is that your view? Have you 
worked with them in Ike and Gustav? Did you find them able to 
manage the responsibilities as expected?
    Admiral Johnson. Well, I think as you saw in our comments, 
we don't think very highly of that particular GAO report. We 
believe that the report----
    Ms. Norton. In what way do you differ from the report?
    Admiral Johnson. Well, I think the report, for example, I 
think it expected the Red Cross and nongovernment organizations 
be the primary provider of support to disaster victims. To my 
knowledge, the GAO did not interview the emergency managers in 
the State of New York, in Texas, or California or Florida. All 
of those States have magnificent well-organized local support 
programs. And the State is responsible for providing for that 
support.
    Ms. Norton. So how did they get the impression that they 
couldn't handle--that the Red Cross in particular, if they got 
the impression the Red Cross was responsible for the bulk of 
it, they most have gotten it from the Red Cross. They must have 
told them it was falling to them.
    Admiral Johnson. I am not sure how they got that idea. I am 
not sure if they had a visitor's shelter before. They didn't 
get that idea from us, and I don't think they got it from 
talking to----
    Ms. Norton. Well, I am not going to put the burden on you. 
I just thought you would like to give your opinion of the role 
of the Red Cross. Do you feel that they are doing an adequate 
job, in terms of their funding, in terms of the carrying out 
their mission and the like?
    Admiral Johnson. They have been phenomenal partners. They 
help us immeasurably, in measurable ways and immeasurable ways, 
in helping to organize the delivery of mass care services to 
disaster victims. They do a great job, in and of themselves, 
they do a great job to link with all the other NGOs and to 
coordinate them and help bring together disparate groups.
    Ms. Norton. So you have no recommendations for improvement 
by Red Cross and other nonprofits who assist FEMA?
    Admiral Johnson. Well, I think our recommendation on 
improvements is we can always continue to work better today, 
communicate better, and to be better organized.
    Ms. Norton. Well, you have had two recent hurricanes.
    Admiral Johnson. And they have done a great job.
    Ms. Norton. All right. As far as you are concerned, you are 
perfect so we will pass on that.
    I have to ask you one question, since you talked about the 
States and prepositioning. You even mentioned the District of 
Columbia. There may be other big cities like the District of 
Columbia. They are located in a State that doesn't have many 
big cities. We are not even located in a State. We treat it as 
a State for all purposes except to vote. But when you hear for 
the 50 States and the District of Columbia, that is us.
    If there were to be a disaster, and not more than 5 years 
ago we had a major flood here--but of course it was positioned 
in part of the city, not the rest--but if for some reason, it 
would likely be a terrorist attack where somebody set off 
something, and we had to be moved, it has crossed my mind more 
than once whether FEMA has determined where residents of the 
District of Columbia, not a State, very small area, less than 
10 square miles, where would the residents of the District of 
Columbia go if they needed sheltering tomorrow?
    Admiral Johnson. We have a program called gap analysis, 
which we may have briefed you on before. And we work with the 
hurricane--18 hurricane impact States, the District of 
Columbia, Puerto Rico, Virgin Islands, and we assess them on 
how ready they are for a disaster. We work with the emergency 
manager in the District and have gone through sheltering, 
transportation, communications, medical services, have a sense 
of what their capabilities are.
    Ms. Norton. Admiral, I asked where would we go. I am 
assuming that a certain percentage of the population had to 
leave town. Do you know where such residents would be directed 
from the Nation's Capital to go?
    Admiral Johnson. There is an existing national capital 
regional evacuation plan that identifies routes in the city, 
and they would go to the suburbs and go to the neighboring 
States. I would be glad to have a staff come by and brief you 
completely on that.
    Ms. Norton. I would like you in 30 days to tell me exactly 
what you say if you have got to go to a shelter out of state, 
that there is planning, prepositioning, where you go. And I 
realize some people live in Southeast, some people live in 
Northwest. In 30 days I would like to know where the residents 
of the District of Columbia--a fair number are Members of 
Congress, a fair number are Federal officials, and many are 
residents of the District of Columbia. I don't want to know the 
routes, I know the routes. And about the last thing you want to 
do--in fact, we tell people stay in place--the last thing you 
would want to do is say they will go to, quote, the suburbs. 
The notion that the suburbs would say you all come is hard to 
believe.
    Admiral Johnson. We would be glad to review that shelter 
plan with you.
    Ms. Norton. Thank you very much. We want places that have 
been designated. I am going to ask the Chair of the Full 
Committee if he has any comments or any questions for Admiral 
Johnson.
    Mr. Oberstar. Thank you, Madam Chair. Thank you, Admiral 
Johnson, for being here with us today. I think the Chair has 
covered a wide spectrum of issues that we anticipated to cover 
in this hearing. The question that may have been asked while I 
was attending to other Committee business is what research, 
development, testing, has FEMA accomplished on housing, that is 
mobile housing, that does not have the adverse health effects 
that have been associated with the FEMA trailers?
    Admiral Johnson. There are two things.
    First is that we have new contracts for mobile homes and 
park model units that require formaldehyde to be at the level 
of.016 parts per billion of formaldehyde. There has never been 
a requirement that low before for construction.
    We worked with the manufacturers of mobile homes, changed 
out building materials, changed out manufacturing processes to 
ensure that they can actually produce units that are that 
virtually low in formaldehyde.
    We have already taken delivery on some of the units, and we 
will take delivery on additional units at the end of October. 
So our first effort has been to reduce the level of 
formaldehyde in these units.
    Mr. Oberstar. Repeat that figure that you said a moment 
ago. I didn't write it down.
    Admiral Johnson. It is .016.
    Mr. Oberstar. .016.
    Admiral Johnson. Second is that we have looked extensively 
for alternatives to mobile homes and park models. We recently 
put a contract out on the street asking for innovative ideas, 
and we are going to buy and test different concepts for how to 
replace a mobile home and a travel trailer. And I think we are 
going to find a number of alternatives that will give us more 
flexibility based on where we might need units, in dense, urban 
areas versus in colder climates or the gulf.
    Mr. Oberstar. What are your requirements for mobile 
housing, that is, standards or requirements for ability to move 
these units from one place to another? Do they have to be of a 
certain size, certain weight, dimension and readiness to be put 
into use? What are the standards that you have established for 
the housing?
    I ask the question because I get, and I am sure Chair 
Norton as well, visits from various organizations that say, 
well, we have something really hot for FEMA. And I haven't sent 
any of them to you, because I don't know what your standards 
are. What are those standards?
    Admiral Johnson. Mr. Chairman, first let me just correct: 
It is .016 parts per million. I said parts per billion. So, 
.016 parts per million.
    Mr. Oberstar. I thought that was----
    Admiral Johnson. We will provide for the record. It is a 
one-sheet requirements in our contracts for mobile homes. But 
it defines the length of the mobile home so it fits on the 
highways, the width of the mobile home, what the equipment is 
required inside the mobile home. So we can provide that to you 
for the record, if you would like.
    Mr. Oberstar. That would be very useful, Because there are 
many people who are interested in these issues. It receives 
such nationwide attention, it is hard to run into a 
constituent, let alone people from other parts of the country, 
who aren't aware of FEMA trailer problem. It is one word, there 
is no hyphen, there isn't even a space. It is a "FEMA trailer 
problem."
    Admiral Johnson. Mr. Chairman, don't be bashful to send 
them on to FEMA. We have established a joint housing solutions 
group, and they are looking for new ideas. And they will meet 
with a vendor, and they will talk with them about our 
requirements. So if you want to forward them to us, we would be 
glad to talk to them about our program.
    Mr. Oberstar. In the interest of full disclosure, my wife 
is from New Orleans, born and raised there, still has family 
there. We visit there frequently. And we went into one of those 
trailers, closed for quite some time, and the aroma would knock 
you over.
    Admiral Johnson. Yeah. We have learned a lot----
    Mr. Oberstar. This is not a figment of anyone's 
imagination. I can't imagine living in this thing.
    Admiral Johnson. It is not. We have learned a lot of 
lessons from the units that we bought for Katrina. And, again, 
I think you are seeing us reflect those lessons learned by 
finding alternatives and by requiring now a very, very, very 
low level of formaldehyde. And, by the way, we test these units 
to make sure that they meet our specification. They don't pass 
the test, we don't buy the unit.
    Mr. Oberstar. Do you have energy consumption standards for 
those trailers as well?
    Admiral Johnson. I don't believe we have energy 
consumption. There is a rating, depending on the climate that 
they are involved in, a level 1, 2 or 3 climate.
    Mr. Oberstar. Okay. I welcome that information whenever you 
can provide it.
    What is the status of the Disaster Relief Fund for the 
balance of this year?
    Admiral Johnson. Dire. We just went below a billion 
dollars, which sounds like a lot of money but in disasters is 
not much. And so we are looking at the cost of--right now our 
projected cost for Gustav and Ike is both--let me say each, 
about $800 million each. And so these are catastrophes.
    When we project the life of the Disaster Relief Fund, we 
typically plan for a hurricane season absent a catastrophe. And 
now we have had the Midwest floods and Ike and Gustav. So we 
are concerned about the size of the Disaster Relief Fund.
    Mr. Oberstar. Do you have data available in FEMA on the 
amount that the private insurance sector has paid out on the 
Iowa floods, Ike and Gustav and so on?
    Admiral Johnson. I don't know that we do, but we will 
check. If we can get that, we will provide it to you.
    Mr. Oberstar. Our staff regularly tracks that information, 
at my direction, and have done over a period of years, and they 
have seen this very sharp escalation of private-sector 
insurance costs in FEMA States' local disaster assistance. We 
are running into the dozens of billions of dollars of cost.
    Admiral Johnson. Yes, sir.
    Mr. Oberstar. And it is a steady progression over the last 
20 years. I mean, this is parenthetical to the discussion at 
hand, but for anyone to say that we are not experiencing global 
climate change, they are not living on the same planet. Those 
figures are unavoidable.
    Will FEMA have to ask for supplemental funding, do you 
think?
    Admiral Johnson. Well, of course that is a judgment for the 
administration. But we are working with them to----
    Mr. Oberstar. But you say you are below a billion dollars, 
and we are still not finished with the hurricane season. There 
is another one brewing in the south Atlantic, I heard this 
morning on The Weather Channel.
    Admiral Johnson. Yes, sir.
    Mr. Oberstar. We could be facing more.
    Admiral Johnson. It is true. You know, we are concerned 
about the balance, and we are working inside the administration 
to see if the President wants to propose a supplemental. I 
don't believe a decision has been made on that yet.
    Mr. Oberstar. We had passed, with Chair Norton's leadership 
and effort, a bipartisan bill from the House. The Senate, there 
are stirrings over there. You just never know what is going to 
happen. Every now and then, the water moves, like the Old 
Testament, water stirs, you jump in it so you will be saved. 
But every now and then, we see stirrings. And it may be that we 
will have a FEMA authorization bill.
    Is there any additional authority or expanded legislative 
authority you might need to address the recovery from Gustav 
and Ike?
    Admiral Johnson. We are looking at that to see whether we 
think we need more authority.
    One thing that we are doing, Mr. Chairman, and I think 
Madam Chairwoman mentioned as well, we think over the years our 
regulations and our policies have become increasingly 
restrictive. And so we are currently in a program to look at 
rewriting our regulations to give us more flexibility in 
changing policy to reflect lessons learned. And so that is our 
primary focus, is fix the regulations and policies. And 
Stafford, in itself, is still a pretty good piece of 
legislation, as you know personally.
    Mr. Oberstar. All right. I don't need to pursue this any 
further. We have two more witnesses to accommodate.
    And, Madam Chair, thank you.
    Mr. Johnson, thank you. Admiral, thank you very much for 
being here. We look forward to receiving your response to those 
earlier questions.
    Ms. Norton. Well, thank you very much, Mr. Chairman.
    By the way, that was a blockbuster, that last thing you 
said, that during the review of your legislations, in light of 
present-day realities, to eliminate some of the rigidity. When 
do you expect that to be completed, please?
    Admiral Johnson. We are working right now on--we have 
looked at our individual assistance program, and we have 
identified three regulations in individual assistance, three 
regulations in public assistance, and 10 policies that we are 
reviewing right now to, again, reflect lessons learned and 
provide more flexibility.
    We are working the reg packages as we speak and reviewing 
those policies, and we certainly hope to get those out within 
this calendar year.
    Ms. Norton. Would those be out for comment?
    Admiral Johnson. Yes, ma'am.
    Ms. Norton. Yeah, well, we would be delighted to see you 
able to do that before this administration ends.
    Admiral Johnson. So would we.
    Ms. Norton. Thank you. Well, thank you very much for very 
helpful testimony, Admiral Johnson.
    And could I ask the final two witnesses if they would come 
forward?
    Thank you for your patience.
    They are: from the Government Accountability Office, 
Cynthia Fagnoni; and from the American Red Cross, Joseph 
Becker, who is the senior vice president for preparedness and 
response.
    We will go with Ms. Fagnoni first.

 TESTIMONY OF CYNTHIA FAGNONI, MANAGING DIRECTOR OF EDUCATION, 
       WORKFORCE, AND INCOME SECURITY ISSUES, GOVERNMENT 
ACCOUNTABILITY OFFICE; JOSEPH BECKER, SENIOR VICE PRESIDENT OF 
         PREPAREDNESS AND RESPONSE, AMERICAN RED CROSS

    Ms. Fagnoni. Madam Chair and Members of the Subcommittee, I 
am very pleased to be here today to discuss our findings from a 
report we issued last week on voluntary organizations' disaster 
response.
    This afternoon I will highlight what we found in four 
areas: the roles of voluntary organizations in providing mass 
care and other services in large-scale disasters; their efforts 
to improve since Hurricanes Katrina and Rita; their current 
capabilities in four large cities; and the remaining challenges 
for these organizations.
    In doing our work, we focused on the Red Cross, the 
Salvation Army, the Southern Baptist Convention, Catholic 
Charities, and United Way. We also visited Los Angeles, Miami, 
New York, and the Washington, D.C., region.
    First, the five voluntary organizations we reviewed are 
highly diverse. The American Red Cross is the only one with a 
designated role as a support agency for mass care under the 
Government's National Response Framework. Both FEMA and the Red 
Cross agree that the Red Cross will support FEMA with staff and 
expertise in responding to a catastrophic hurricane or 
earthquake. However, this agreement is not clearly documented 
in the Catastrophic Incident Supplement to the framework. In 
our report, we recommended that FEMA update and document its 
expectation for the Red Cross in a catastrophic disaster, and 
FEMA agreed.
    Second, our report also found that the voluntary 
organizations we reviewed have taken steps to strengthen their 
service delivery. For example, the Red Cross has initiated 
thousands of new partnerships with local community and faith-
based organizations, particularly in rural areas with hard-to-
reach populations. These organizations also are collaborating 
more on feeding and case management and on improving their 
supply chain management and communication systems.
    Third, our report found that voluntary organizations have 
substantial sheltering and feeding resources both locally and 
nationally. However, without government and other assistance, a 
worst-case, large-scale disaster would likely overwhelm 
voluntary organizations' current mass care capabilities. For 
example, a catastrophic earthquake striking Los Angeles could 
create the need to shelter more than 300,000 people, but the 
Red Cross can shelter 84,000 locally under the best conditions. 
And a nuclear terrorist attack in Washington, D.C., could 
require 300,000 more meals per day than the Red Cross can 
currently provide.
    Because such disasters call for a communal, all-hands-on-
deck response, government employees in New York City and 
elsewhere are being trained to provide sheltering and feeding 
in a catastrophic disaster. FEMA has also developed some 
contracts with private-sector companies to provide resources as 
well.
    Our report found that FEMA's initial assessment of mass 
care capabilities in selected States did not include the 
sheltering capabilities of all voluntary organizations and did 
not address feeding capabilities outside of shelters. Our 
report recommended that FEMA take steps to better incorporate 
voluntary organizations' capabilities into its assessments of 
mass care capabilities. FEMA disagreed, saying that Federal, 
State and local government cannot command and control private-
sector resources.
    However, FEMA is required, under the Post-Katrina Act, to 
establish a comprehensive system to assess the Nation's overall 
preparedness. Such an assessment should account as fully as 
possibly for voluntary organizations' capabilities. Taking 
steps to assess capabilities more fully does not require 
controlling these resources but, rather, cooperatively 
obtaining and sharing information. Without such an assessment, 
the Federal Government will have an incomplete picture of the 
mass care resources it could draw upon in large-scale 
disasters, as well as of the gaps that it must be prepared to 
fill.
    And finally, voluntary organizations continue to face 
challenges in preparing for large-scale disasters. Reliant on 
volunteers and donations, many organization struggle to raise 
private funds to help them better prepare for future disasters, 
especially potentially catastrophic ones.
    While FEMA told us some Federal emergency preparedness 
grants could help, its guidance did not clearly state that 
voluntary organizations could be considered among those as 
eligible subgrantees. In our report, we recommended that FEMA 
clarify States' ability to consider voluntary organizations as 
among the potential recipients of Federal preparedness funds, 
and FEMA agreed.
    In conclusion, recent events bring home once again the 
critical role of the Red Cross and other voluntary 
organizations at such times, as well as the importance of 
preparing for large-scale disasters. As it stands now, the 
Nation is not yet as prepared as it needs to be to shelter and 
feed survivors of a catastrophic disaster.
    This condition includes my statement. I would be happy to 
answer any questions you may have. Thank you.
    Ms. Norton. Thank you very much, Ms. Fagnoni.
    Mr. Becker, of the Red Cross.
    Mr. Becker. Chairwoman Norton, good afternoon. My name is 
Joe Becker, and I lead the American Red Cross disaster relief 
efforts nationally. Thank you for your invitation to speak here 
today.
    I was asked to address two issues: the GAO report on mass 
care capabilities in catastrophic events and how the nonprofit 
sector organizes and responds to disasters.
    I will start with how the sector works. I think the best 
word to describe how the nonprofit sector works is "layers." If 
today is an average day, the American Red Cross will respond to 
about 200 disasters around the country, and most of these will 
be very small. It is an apartment fire, it is a transportation 
incident. We are called on the scene by a local fire 
department, and we respond. We don't pick and choose which 
disasters we respond to; we always respond when called.
    The things we do in a very small disaster, say, an 
apartment fire, are the same things we do on large disasters. 
We provide a safe shelter for people, and we feed them in the 
shelter. We feed the community at large, driving through 
neighborhoods that are affected. We distribute supplies that 
are over and above what Admiral Johnson was referring to in 
points of distribution, or PODs. We provide mental health with 
volunteer psychiatrists, psychologists, mental health 
professionals. Our nurses provide first aid and minor health-
care treatments. And we provide safe blood and blood products.
    I described the very small disaster that the Red Cross 
typically responds to alone. If something is a little bit 
bigger than that--you live here in the District; remember the 
recent flooding adjacent to here in Fairfax County--if a 
disaster is a little bit bigger, we will be joined by great 
partners that we work with very closely. They are typically 
faith-based groups. Catholic Charities, Southern Baptists and 
the Salvation Army would be the primary ones that typically 
join us on larger-scale relief efforts.
    Then, if something is quite large--the Midwest floods, Ike, 
Gustav--we are joined by a large number of organizations. On 
something that big, everyone wants to help, and no one more so 
than the faith communities. And you will remember in Katrina, 
that was one of the frustrations people had. A church or local 
group would want to open up a shelter or open up a kitchen, 
and, frankly, after 2 or 3 days if they fatigued, if they 
turned to the American Red Cross for support, they got varying 
answers depending on where they were. Our biggest lesson--and 
you heard the GAO report address it--is, how do we bring 
community groups together to serve? And that is what we have 
been about post-Katrina.
    In a disaster, 90 to 95 percent of the people take care of 
themselves. They check into a motel, they go stay with mom, 
they stay with friends, they stay with family. It is the 10 
percent, maybe 5 percent, of people who can't care for 
themselves or don't have those options, that is who the 
American Red Cross cares for in disasters. They are older than 
the population at large. They are poorer than the population at 
large. And, typically, they are less healthy than the 
population at large. It is the frail elderly, in particular, 
with which we spend an awful lot of our time and service.
    And what we have been about post-Katrina is bringing other 
organizations who can help with those people into the 
operations. Nationally, we have about 150 partnerships with 
organizations that don't have a disaster mission but can help 
in time of disaster: examples like the Urban League, the NAACP. 
In fact, in Mayor Nagin's city, the NAACP is who helped the Red 
Cross distribute meals post-Gustav.
    We have done a lot here. We have thousands of partnerships, 
particularly on shelters where we train a church, equip them, 
supply them, pay their bills after a disaster. That way, we 
make sure we are serving a very inclusive response; 
geographically and demographically, we are reaching everybody 
that we should. The best outcome is local people helping local 
people before the Red Cross brings large numbers of volunteers 
from all around the country in to respond.
    How is the sector coordinated or organized? The American 
Red Cross has a primary mission of disaster relief. There are 
eight other national nonprofits who don't have a primary 
mission for disaster but who take a role and bring value in 
time of disaster. The new National Response Framework tasks the 
American Red Cross with integrating the efforts of the nine 
national nonprofits who deliver service and disaster relief, 
and we do that. We share information, and we plan service 
delivery.
    Locally, though, in over 3,000 counties, that organization 
is done in various ways. Sometimes the Red Cross coordinates 
other nonprofits. Sometimes the local emergency manager does. 
Sometimes another organization will. That is a local decision. 
And we receive great support from FEMA, who has people in each 
of its regions who help coordinate the voluntary sector as 
well.
    Addressing the GAO report, I would like to be very clear 
here. We have used the word in this hearing several times 
today: ``overwhelmed.'' What we are talking about is: are we 
ready_the Red Cross and our nonprofit partners_for a 
catastrophic event? That is not the California wildfires or 
Hurricanes Ike or Gustav or any of those disasters. I think we 
have demonstrated in those disasters our ability to respond and 
to respond well.
    Post-Katrina, the American Red Cross made significant 
efforts and investments to improve our capabilities. And part 
of that was to quantify our worst-case scenarios. Not 
necessarily disaster scenarios with large numbers of fatalities 
or casualties. Rather, we were looking at what scenarios would 
most stress our ability to feed, our ability to shelter, our 
ability to distribute supplies. And we picked six scenarios, as 
outlined in the report.
    So, for example, the most catastrophic thing that could hit 
New York was a hurricane, not in terms of number of fatalities 
or casualties, but in terms of demands on sheltering, demands 
on feeding. Another scenario was a terrorist attack here in the 
District, and we looked at other scenarios as well. We fed that 
information to FEMA as part of their gap analysis, but our 
internal data is what the GAO used in the report.
    For example, here in the District, you said we would need 
to shelter 300,000 people and we only have spaces for 13,000. I 
think what the report from the GAO might not recognize is, if 
something happens here in the District, the sheltering is not 
going to happen here in the District. To your point, Madam 
Chairwoman, they are going to go to a multi-State area. And we 
have modeled this out. And we have 718,000 shelter spaces in 
the multi-State area around the District. And if we needed to 
add Pennsylvania, that would add another half-million shelter 
spaces. And, again, typically, we are only sheltering 5 to 10 
percent of the people who evacuate.
    The bottom line: we obviously agree with the GAO 
assessment--it was our data that they used--that we are not 
ready for the worst things that we can imagine. We were trying 
to look at disasters that would make Hurricane Katrina look 
small, and those were the scenarios that we were working with. 
The Nation is not ready for disasters that would make Katrina 
look small, and the American Red Cross is not ready to deliver 
mass care on that type of scale. Our numbers show that we have 
a long way to go.
    But it is the nature of a catastrophic event that no one 
organization can handle it all and Government can't handle it 
all, the Federal Government, nor the Red Cross, nor our 
partners. It is the collective capability of the country that 
we need to address and make sure is big enough for a 
catastrophic event.
    And, finally, Madam Chairwoman, my key issue, and it has 
been covered several times in this hearing: it is the money, 
where it comes from, and who pays for what in terms of 
nonprofit mass care service delivery. Our work is typically 
funded by people who give. And, typically, when Americans see a 
large-scale event, they are very generous in supporting 
nonprofit service delivery. Our recent experience has been 
different from that, however. We have had so many disasters, 
and in a tough economy we have been having trouble raising the 
cost of our relief effort.
    But it is one thing to ask a donor to pay for feeding and 
sheltering and caring of people. It is very different to ask 
Americans to pay for what it costs to be ready to respond to a 
disaster: for warehouses, for call centers, for recruiting 
volunteers, for training those volunteers. That is very, very 
hard. And the GAO report correctly states that nonprofits are 
an integral part of mass care. We are the service delivery. It 
is not a layer-on or a nice-to-have. We are who do that work. 
And if we falter, the Nation's response will falter.
    The GAO report also correctly states that the Red Cross and 
its partners need to build greater capacity. We do, and we 
understand that.
    The GAO report, finally, correctly says that nonprofits are 
largely shut out of the grant process to build this capacity. 
While FEMA intends nonprofits to be eligible, we have to go 
through a county or State to receive grant money. And, frankly, 
they are the decision-makers as to whether we would be included 
in that grant process or not.
    A simple solution to this that I commend to your attention 
is to allow national nonprofits, particularly those with NRF 
responsibilities, to apply directly to FEMA for capacity-
building grants. This is simple; this is relatively easy to do. 
It makes a lot of sense, and it would make a big difference.
    In closing, the Red Cross has built a lot of capacity in 
recent years, we have been repeatedly tested, and we have 
performed well. But there are catastrophes that we can imagine 
that will make Ike and Gustav and all the recent events look 
very, very small. These will make Katrina look small by 
comparison. We can imagine these events, and we need to get 
ready. And, Chairwoman Norton, we appreciate your support.
    Thank you very much.
    Ms. Norton. Well, thank you, Mr. Becker.
    Let me start with Ms. Fagnoni.
    You indicate that the Red Cross and similar organizations 
would be overwhelmed, in the context of having to deliver 
services. Was the Red Cross overwhelmed in Katrina, for 
example, during Katrina?
    Ms. Fagnoni. We did issue reports after Hurricane Katrina 
that highlighted issues and problems that the nonprofit sector 
did encounter, including the Red Cross, and made some 
recommendations, both to the Red Cross as well as to FEMA, on 
how to make those improvements.
    I think the Red Cross would agree with me that Katrina 
really tested that sector and the Nation's ability to respond 
to that kind of disaster in a way that they hadn't really been 
tested before, in terms of the scale.
    Ms. Norton. I know that the State was overwhelmed. I know 
that FEMA was overwhelmed. I am asking, in your view, was the 
Red Cross overwhelmed as well?
    Ms. Fagnoni. It definitely faced challenges, yes, and had 
difficulty----
    Ms. Norton. I am trying to find out what "overwhelmed" 
means in the context of service delivery.
    Ms. Fagnoni. What we were really looking at and what we 
were asked to look at by a number of the congressional 
requestors who asked us to do this work was to look at the 
catastrophic incident supplement; what would happen in a really 
major catastrophic event, Katrina or larger----
    Ms. Norton. And so, how do you define catastrophic 
incident?
    Ms. Fagnoni. For purposes of our report, we based it on the 
kinds of scenarios that had been developed by FEMA and by the 
Red Cross to look at a situation where there was widespread 
destruction, potentially large loss of life, significant 
communications destruction, really major----
    Ms. Norton. So would Katrina----
    Ms. Fagnoni. Katrina or worse, yes.
    Ms. Norton. Okay. We can't even imagine worse. But I think 
Katrina gives you all you need to know to know about a 
catastrophic event. Although, Congress does not define--I guess 
that is left to the President.
    So I am trying to, given the scenarios you have looked at, 
to understand when would we know that the Red Cross was 
overwhelmed? When it didn't have enough people to deliver the 
service, is that what you think is going to happen? I mean, 
after all, they only have the supplies that they have, and they 
usually come from the government.
    So I am trying to understand what makes you believe--
whether there has been an event that made you understand that, 
based on their performance at that event, they were overwhelmed 
there, so they would certainly be overwhelmed in event of a 
catastrophic event? Or whether you were looking at certain 
indicators to say, in the event of some scenario?
    Ms. Fagnoni. That is right; we were looking at the scenario 
planning.
    Ms. Norton. As far as I am concerned, you have had the 
scenario. If Katrina wasn't a scenario, then I don't know what 
we are waiting for. Normally, we have to do these things by 
computers. There it was done for you.
    But go ahead. Was there a scenario that, for example, fed 
off of Katrina?
    Ms. Fagnoni. Yes, I believe there were scenarios that 
looked at hurricanes that were at least as large as Katrina.
    Ms. Norton. Okay. So, in what way would they be 
overwhelmed?
    Ms. Fagnoni. We were looking specifically at the mass care 
pieces of the puzzle, which is where the voluntary sector 
really provides the services. And it was a combination of, in 
some cases, the capacity in terms of sheltering space, combined 
with the availability of trained_whether it is volunteers or 
staff_trained people to staff those facilities.
    For example, in New York City I believe, the Red Cross 
identified a lot of bed space, shelter space, something like 
300,000. But what they also identified was a limited number of 
volunteers or staff who were trained to staff those shelters.
    Ms. Norton. Now, who does the training?
    Ms. Fagnoni. The Red Cross does a lot of its training, and 
they also cross-train with other voluntary organizations.
    But what we also note in the report is that the local 
governments, in conjunction with the Red Cross, are planning 
and doing their own training. For example, New York City has 
plans to and is training its own city employees, so they can 
staff shelters in the event of, let's say, a catastrophic 
occurrence.
    Ms. Norton. That is unusual. So the training has to come 
from Red Cross or Red Cross volunteers. New York is a mega-
city.
    Ms. Fagnoni. In Los Angeles, I understand that the Red 
Cross is helping train city employees there.
    Ms. Norton. So do you believe that cities should be 
training city employees to assist the Red Cross so that it will 
not be overwhelmed?
    Ms. Fagnoni. I think the way New York City is approaching 
this is they have plans to staff up shelters initially, and 
then the plan is, in working with the Red Cross, that they 
could turn that capability over time to the Red Cross, but they 
would be able to step in to try to provide some surge capacity.
    Right now, for example, what you had in Katrina is there 
were a lot of entities that stepped up. There were places, as I 
think Mayor Nagin made reference to, where the Red Cross didn't 
set up shelters and these, what were called, pop-up shelters 
emerged, where churches and other organizations would set up 
sheltering. But what we and others found is that the people who 
set those up were very well-intentioned but often didn't really 
understand what they were getting into; didn't have the 
training, didn't understand all the things that go with trying 
to set up a shelter.
    So I think people are learning from this and trying to 
understand. The voluntary sector, as important as it is, cannot 
do it alone and wouldn't be expected to do it alone in a really 
large-scale disaster. So this kind of gap analysis and 
assessments that the Red Cross and FEMA have been doing we 
think are helpful in helping people understand what might be 
needed, and how these various entities that have responsibility 
can work together to provide the necessary capabilities--State, 
local, Federal, nonprofit, business sector, all of the 
different players.
    Ms. Norton. Mr. Becker, how do you receive the suggestions 
that maybe city employees could be equipped to step in until 
Red Cross came or to assist the Red Cross in large cities, for 
example, or perhaps elsewhere?
    Mr. Becker. Madam Chairwoman, we ask them to. That was our 
request of the city.
    I think what we have to be clear about is there are no-
notice events, like earthquakes, where what we have there right 
then is all we have to respond with. And then, in the case of 
hurricanes, we can move thousands of people in before the storm 
hits, we can make sure we have all of our supplies. We were 
focused on the no-notice events, because I don't want to take 3 
days to get thousands of people brought into San Francisco 
after an earthquake. I want to have a lot right there.
    Ms. Norton. So the city employees could be useful, is that 
what you are saying?
    Mr. Becker. That is who we are training to help work with 
the Red Cross and shelters.
    Ms. Norton. In how many cities is that happening?
    Mr. Becker. I would have to get you that information. But 
we have gone to multiple States and asked them to pass 
legislation to free their workers up to become Red Cross 
workers.
    Ms. Norton. I just think that is very important. When you 
talk about trouble in raising money and volunteers, I expect it 
to get worse, not better. You know what is on the Hill today 
and this week. So, as we think about where is the money, where 
are the people going to come from, I must say, Ms. Fagnoni's 
notion, which you now say is something that you have been 
doing, has legs, as far as I am concerned.
    Now, you say that each State would have to, of course, 
indicate that its employees, while still employed I take it, 
could assist in the shelters. And so far, LA and New York----
    Mr. Becker. San Francisco.
    Ms. Norton. --have done that. It does seem to me that that 
is an idea that the Federal Government should encourage, 
because I don't know where more resources or more people are 
going to come from.
    Ms. Fagnoni, I am not sure what shelters you are talking 
about. You are talking about Red Cross shelters. Like, what is 
the Red Cross shelter in D.C.?
    Because, you know, there may be shelters that would not be, 
quote, "Red Cross shelters" that the city provides. So when you 
say the Red Cross doesn't have the ability to shelter, I am not 
sure what sheltering you are specifically referring to.
    Ms. Fagnoni. We used the available data we could get. And 
the data that were available--we used FEMA data for trying to 
estimate some of the need, and we used the Red Cross's own 
internal data, as Mr. Becker mentioned----
    Ms. Norton. Mr. Becker, in a place like D.C., I don't know 
what she's calling a Red Cross shelter.
    Mr. Becker. Sure. Thank you for asking. We don't own any 
buildings----
    Ms. Norton. That is right. So why is she assigning it to 
the Red Cross? Because there is a pre-existing agreement?
    Mr. Becker. Correct. We have 50,000 buildings in this 
country that we have inspected and put into a database and know 
the capacity of that are ready to be shelters. And the issue 
here is who declares a shelter. The local emergency manager 
declares a shelter. I can't take over a high school and say the 
gym is now a Red Cross shelter, but the local emergency manager 
can and does.
    So working within the county level or in the district level 
here, everyone knows what the buildings are that could be 
shelters. We have already identified them, we know where they 
are. Now, depending on the----
    Ms. Norton. And so, are there lots of people running 
shelters besides the Red Cross?
    Mr. Becker. We are the primary shelter organization. Most 
communities turn sheltering over to the Red Cross. Most States 
turn sheltering over to the Red Cross.
    Ms. Norton. Where would they be in D.C.? Do you know off 
the top of your head? Is it the Armory?
    Mr. Becker. The Armory was one. That is where we put people 
during Katrina who came here. The Red Cross ran that shelter. 
Typically they are schools--
    Ms. Norton. Well, if there was a catastrophic events--and 
she was addressing catastrophic events--many of these people 
might have need to go outside of the District. Perhaps you 
heard me give the Administrator 30 days to provide me with 
where residents in the District of Columbia, not part of a 
State, would go.
    Have you been involved with localities like the District, 
where people may not be able to be sheltered in the State, 
almost surely would not be sheltered within the State, and thus 
would find themselves on somebody else's territory? How would 
that work?
    Mr. Becker. We have modeled out, if we evacuated the 
District, where we think the people would go. Now, that is not 
a precise science, but we believe they would go to Maryland, 
Virginia, West Virginia and Delaware.
    Ms. Norton. Does Maryland, West Virginia and Delaware know 
that?
    Mr. Becker. I am sorry?
    Ms. Norton. Do Maryland, West Virginia, Virginia and 
Delaware know, "Here we come"?
    Mr. Becker. Yes, they do. Yes, they do.
    Ms. Norton. And they are prepared with shelters to receive 
residents of the District of Columbia?
    Mr. Becker. There are 1,821 shelters in those States that 
can handle 718,000 people.
    Ms. Norton. Now, they are prepared to receive out of State, 
and that is why, for example, Texas received people from 
Louisiana?
    Mr. Becker. Sure. The American Red Cross's job is to be on 
the receiving end and open up adequate shelters wherever the 
people evacuate to. So, during Gustav, we sheltered in 11 
States.
    Ms. Norton. So, wait a minute. The pre-existing agreement 
that this is a Red Cross-designated shelter goes not only for 
residents of that State, but whoever may need to come to use a 
shelter in that State?
    Mr. Becker. One of the fundamental principals of the 
American Red Cross is that that shelter has to be open to 
anybody.
    Ms. Norton. This is very important for the residents of the 
District of Columbia who know there is not enough room here to 
hear.
    Well, Ms. Fagnoni, don't you think it was a little 
misleading to say that there are only 13,000 shelters available 
for the residents of the District of Columbia in a case of a 
mass casualty, since they would have been to evacuated almost 
surely to other States?
    Ms. Fagnoni. We were using the Red Cross's data, and, 
actually, those data do include the surrounding counties.
    Ms. Norton. 13,000?
    Ms. Fagnoni. Yes.
    Ms. Norton. Well, wait a minute. Because have you Mr. 
Becker right here. Now, Ms. Fagnoni now says the 13,000 that 
could be sheltered includes not only the District of Columbia 
but the, quote, "surrounding----
    Mr. Becker. Counties.
    Ms. Fagnoni. Counties, right.
    Ms. Norton. Now, a mass shelter would mean perhaps as many 
as 150,000 people being evacuated. Where would they be 
sheltered?
    Mr. Becker. I would suggest that if the District evacuated 
in a terrorist incident, they are not all going to go to 
Fairfax County and Montgomery County. It is not just a very 
close-in evacuation. Experience shows us that people disperse 
over a multi-State area. When Katrina hit, the American Red 
Cross sheltered in 26 States. That is where the people went.
    Ms. Norton. So, Ms. Fagnoni, I understand why you looked at 
the--and I think a lot of people would head toward the nearest 
shelters. But I would hope--and that is what the Administrator 
is going to have to get me--that they would be directed, as 
they were in Katrina. Katrina didn't take everybody to the 
closest shelter; they took people all the way to Arkansas and 
to D.C.
    Mr. Becker. Right.
    Ms. Norton. So they would apparently have to be directed. 
And if there was the kind of planning that I think is 
necessary, they would have to be directed to shelters where 
there are places to go, so that you wouldn't crowd up on people 
who were closest here.
    I am just saying to GAO, you know, that could have raised 
alarms if we hear this, because the uninitiated think that that 
means there is no place else to go once you get past 13,000.
    You indicate, Mr. Becker, that there are capacity 
improvements. Ms. Fagnoni has noted that, since they were 
there, there have been some improvements. And you talk about--
you, after all, are quite decentralized organizations; that is 
why you are so valuable. Agreements signed with 150 
organizations at the local level. Is it the local level, the 
national level?
    Mr. Becker. National level.
    Ms. Norton. It is the national level. Okay. Since 
everything depends upon what is on the ground, who monitors 
these agreements to assure that the capacity levels are kept 
current? Because, as you say, there could be unexpected events, 
and a terrorist event would be just that.
    Mr. Becker. Sure, it is one thing for us to have 150 
national agreements. I would suggest the most important 
agreements we have are our local chapters with local 
organizations. And we have thousands of those, post-Katrina.
    The model here is we reach out to a church that might be in 
a difficult-to-serve part of the community or might speak a 
language we don't speak or more better represent the community. 
And we ask them long before the disaster, can we train you, can 
we give you our cots, can we give you our blankets and 
supplies? And what really gets their attention is we say, can 
we pay your bills if you are willing to become part of this 
community's disaster response? We don't ask them to become part 
of the Red Cross; we ask them to become part of the community's 
response. And those are the thousands of local arrangements 
that we have put in place.
    When Gustav hit Louisiana, we sheltered about 18,000 people 
in Louisiana on the second night, and a fourth of those 
shelters were those partner shelters. They weren't all run by 
the American Red Cross. That was a good thing. We wanted----
    Ms. Norton. Do you think that shelter in northern Louisiana 
that a thousand poor people were shipped to was run by the Red 
Cross?
    Mr. Becker. No, ma'am. That shelter was part of the 
evacuation strategy for the people who left New Orleans on 
buses, that, as the Admiral said, was controlled by the State. 
And the State chose to operate the shelters on the receiving 
end of the buses. So the State----
    Ms. Norton. Probably because there wasn't any Red Cross 
shelter they could go to at that point?
    Mr. Becker. I would suggest to you that if you look at the 
State of Louisiana, there are buildings that could handle 
67,000 people.
    Ms. Norton. That could handle 6,000 or 7,000 people?
    Mr. Becker. In Louisiana, 67,000, almost 70,000. And we 
only had 18,000 people in our shelters the second night of 
Gustav. We had excess shelter capacity in Louisiana when Gustav 
hit, but part of the plan for the bus evacuation--the State was 
very concerned that they would know where the buses were going, 
and they wanted to be the ones on the receiving end to take 
care of them. And, frankly, Madam Chairwoman, made several 
attempts to offer our support for those shelters after the 
first night.
    Ms. Norton. Well, wait a minute. You were on the receiving 
end. You are the service deliverer that Louisiana and everybody 
else is most accustomed to. Why did they decide to bypass the 
Red Cross shelters and go to a warehouse with a thousand people 
with no place to bathe and no privacy? Why would they have done 
that if you offered them shelters?
    Mr. Becker. There was a concern the storm was coming in on 
such a level--I mean, remember, it was a Category 4.
    Ms. Norton. Were you too near the storm?
    Mr. Becker. No. The issue was we all thought that we were 
going to fill our shelters up in Louisiana. That was a very 
distinct possibility. We did it during Katrina, and that we 
would be sheltering further away. And so the State made the 
decision to add shelters for the people who were bussed and 
that they would operate those shelters.
    Ms. Norton. I see. So it was anticipated that you would 
have people coming to your shelters, and that did not occur.
    Mr. Becker. Everybody who got in a car and evacuated 
themselves went to Red Cross shelters. What the State opened up 
were several buildings----
    Ms. Norton. But you were under capacity in the Red Cross 
shelter. If everybody went to the Red Cross shelter and you 
were under capacity, they thought that those shelters would be 
full? I see.
    Mr. Becker. We were planning on the worst. You have to plan 
for the worst----
    Ms. Norton. I see.
    Mr. Becker. --and we were all pleasantly surprised.
    Ms. Norton. I see.
    Let me ask Ms. Fagnoni, we know that your report was in 
before Ike and Gustav, but if you look at Galveston, fairly 
catastrophic. We have seen problems with government, FEMA for 
example, getting supplies there. But when it came to 
distribution of supplies, the Red Cross is also involved in the 
point-of-delivery distribution with prepositioning of supplies.
    Is it your view that where the Red Cross has prepositioned 
supplies, I guess it is their responsibility to then get the 
supplies to their centers, that in a mass casualty they would 
have difficulty doing that?
    Ms. Fagnoni. You are right, we didn't look specifically at 
Gustav for our report. But we do talk about some of the actions 
that the voluntary organizations have taken since Katrina to 
try to better deal with some of the logistical issues that came 
up. And, actually, I know the Red Cross and the Southern 
Baptist Convention tend to work together a lot, in terms of 
supply chains and prepositioning. And a number of these 
voluntary organizations have started prepositioning more 
supplies, putting global positioning systems in their equipment 
and things like that. So, in a general sense, they are trying 
to be responsive.
    But the scenario and to what extent the Red Cross is 
working in conjunction with others I think would depend on the 
specific scenario. They may or may not only be managing their 
own resources, they may also be working in conjunction with 
other voluntary organizations.
    Ms. Norton. Yes, Mr. Becker, did you want to respond to 
that?
    Mr. Becker. Thank you very much.
    The points of distribution that you heard the Admiral refer 
to and where we had some issues, those are different supplies. 
That is ice and water, which FEMA, through the Army Corps of 
Engineers, prepositions into a community to support people 
post-disaster.
    We don't typically receive our supplies from government. 
When we feed people, we buy that food or we get it donated. 
When we distribute rakes and shovels and clean-up kits and 
toiletry kits, we buy those or we get those donated. We don't 
receive those from government.
    Sometimes on those PODs, or points of distribution, you 
will see Red Cross workers there, our volunteers, because there 
is just not enough people to hand things out, so we will give 
volunteers to local government. But those PODs are giving away 
ice and water and MREs from the military, frankly. That is a 
different supply chain than what we use to feed community, to 
shelter people, to distribute in communities.
    Ms. Norton. Well, I am sure Ms. Fagnoni would agree that 
the country regards the Red Cross as heroic in times of 
disaster. We don't, by any means, assign to you all the mass 
care responsibility. After Katrina, we know that much of that 
responsibility would be beyond anybody, except the government, 
to help take care of.
    Indeed, Mr. Becker, you say that even with Gustav and Ike, 
Louisiana thought it would have to set up its own facility. And 
look what it did. It shows you that, when you are armatures at 
it, as the State clearly was if they put a thousand people in a 
warehouse with no bathing facilities, you are not likely to do 
it very well.
    So we are very, very concerned that the Red Cross continue 
to work closely. We understand the funding difficulty. You have 
heard me ask those questions. This is not an appropriation 
hearing. We are trying to find out how it works, following the 
GAO report. We recognize that the Red Cross is being put in an 
untenable position, but we think so is government.
    And one of the things we are going to have to figure out, 
as we become overwhelmed, is how to make sure the Red Cross, 
who has been doing it virtually by themselves as an agent of 
the government, but with volunteers, with donations, we are 
going to have to ask ourselves some tough questions, whether or 
not we can expect you to continue to do what you do. Yes, there 
is some Federal funding for certain kinds of missions, but we 
are going to have some tough questions to ask ourselves, 
particularly before any catastrophe strikes of the kind that is 
now unexpected.
    Your testimony, both the GAO report, has been helpful to 
us. I am sure it will be to Mr. Becker.
    And, certainly, Mr. Becker, the Red Cross is continuing 
activities essential to the United States of America. We want 
to thank you for it. We will continue to work with you. And 
your testimony has made us understand, as has the GAO report, 
how we as a Subcommittee have to proceed in order to make sure 
that FEMA works closely, even more closely, with the Red Cross 
to maximize its internal capacities and responsibilities.
    You have had your own problems. I am not going to ask you 
about your turnover and presidents and the like. Because it 
looks like when you get a problem, you try to then go to the 
next step and get a new manager. As long as you do that and you 
continue to do the kind of work you have been doing on the 
ground, all we can do is thank you.
    I thank both of you for very helpful testimony.
    Ms. Fagnoni. Thank you.
    Mr. Becker. Thank you.
    Ms. Norton. And this hearing is adjourned.
    [Whereupon, at 5:00 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
